<html>
<title> - CONGESTION AND MOBILITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        CONGESTION AND MOBILITY

=======================================================================

                                (110-48)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
35-930                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)



                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                        PETER A. DeFAZIO, Oregon

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    RICHARD H. BAKER, Louisiana
JULIA CARSON, Indiana                GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY MCNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
DORIS O. MATSUI, California          JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
ZACHARY T. SPACE, Ohio               THELMA D. DRAKE, Virginia
BRUCE L. BRALEY, Iowa                MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Catlin, Peggy, Colorado Department of Transportation, Deputy 
  Executive Director.............................................    28
Lomax, Timothy J., Research Engineer, Texas Transportation 
  Institute, Mobility Analysis Program, College Station, Texas...    28
Shane, Hon. Jeffrey N., Under Secretary for Policy, U.S. 
  Department Of Transportation, accompanied by the Honorable J. 
  Richard Capka, Administrator, Federal Highway Administration 
  and the Honorable James S. Simpson, Administrator, Federal 
  Transit Administration.........................................     4
Stone, Craig, Deputy Administrator, Washington State Department 
  of Transportation, Urban Corridors.............................    28

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carney, Hon. Christopher P., of Pennsylvania.....................    40
Carson, Hon. Julia, of Indiana...................................    42
Cummings, Hon. Elijah E., of Maryland............................    43
Walz, Hon. Timothy J., of Minnesota..............................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Catlin, Peggy....................................................    50
Lomax, Timothy J.................................................    68
Shane, Jeffrey N.................................................    82
Stone, Craig J...................................................   101

                       SUBMISSIONS FOR THE RECORD

Catlin, Peggy, Colorado Department of Transportation, Deputy 
  Executive Director, presentation slides........................    53
Lomax, Timothy J., Research Engineer, Texas Transportation 
  Institute, Mobility Analysis Program, College Station, Texas, 
  response to questions from Rep. Carson.........................    80
Shane, Hon. Jeffrey N., Under Secretary for Policy, U.S. 
  Department Of Transportation:

  Responses to questions from Chairman DeFazio...................    88
  Responses to questions from Rep. Carson........................    92
  Responses to questions from Rep. Napolitano....................    97
Stone, Craig, Deputy Administrator, Washington State Department 
  of Transportation, Urban Corridors, ``Low Cost, High Benefit 
  Congestion Relief from Better Highway Management,'' Washington 
  State Department of Transportation.............................   106

[GRAPHIC] [TIFF OMITTED] T5930.001

[GRAPHIC] [TIFF OMITTED] T5930.002

[GRAPHIC] [TIFF OMITTED] T5930.003

[GRAPHIC] [TIFF OMITTED] T5930.004

[GRAPHIC] [TIFF OMITTED] T5930.005

[GRAPHIC] [TIFF OMITTED] T5930.006

[GRAPHIC] [TIFF OMITTED] T5930.007

[GRAPHIC] [TIFF OMITTED] T5930.008



                   HEARING ON CONGESTION AND MOBILITY

                              ----------                              


                         Thursday, June 7, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [Chairman of the Subcommittee] presiding.
    Mr. Baird. Good morning. I want to welcome you here to this 
hearing of the Transportation Committee and thank our 
distinguished guests and my dear friend and colleague, the 
Ranking Member, Mr. Duncan.
    Mr. DeFazio, who is the Chair of this Subcommittee, will 
join us in a little while. I am Congressman Brian Baird and I 
have the privilege of filling in until he gets here.
    As you know, today's hearing is on congestion, and as we 
all know, anybody who drives at all knows, that many of the 
regions of the Nation have really what you could call a 
congestion crisis. The surface transportation system is a 
national network that serves the mobility needs of the entire 
Country, but localized congestion has effects that ripple 
across the entire Nation. Addressing this situation will 
require a national response and strong Federal leadership.
    The most recent report by the Texas Transportation 
Institute found that congestion continues to grow in urban 
areas of every size. Congestion places a significant cost on 
the Nation in terms of wasted time and wasted fuels. In 2003, 
overall traffic delays totaled 3.7 billion hours; an extra 2.3 
billion gallons of fuel was consumed due to congestion; and the 
total cost was estimated at $63.1 billion, up from $12.5 
billion in 1982.
    There is no silver bullet to solving this congestion 
crisis, but to begin reversing congestion, all levels of 
government must implement a range of strategies and policies. 
Solving the problem will require a multi-pronged approach 
involving expanding roadway and transit capacity, but--and I 
particularly want to emphasize this--solving this problem will 
require more than just additional capacity. We need to provide 
more travel options; we must improve the operational efficiency 
of transportation networks; there must be better demand 
management; employ new technology; and better align land use 
development and transportation planning. All must be part of 
the solution to this crisis.
    I personally believe we need particularly to encourage 
people to try to live closer to where they work and where their 
kids go to school, because a lot of folks think they are saving 
money on houses far outside of town, but when you factor in the 
cost of driving in and the time commitment, the savings is 
actually illusory.
    Congestion is a critical issue that must be addressed by 
this Committee as we begin our efforts to reauthorize Federal 
surface transportation programs which will expire in 2009--
seems like we just did them, Jim--but we must look at the 
structural policy needs of our surface system before our 
congestion crisis worsens.
    I thank our witnesses for being here today. We look forward 
to the hearing.
    I recognize Mr. Duncan for opening remarks and, I 
understand, a presentation of some sort.
    Mr. Duncan. Well, thank you very much, Mr. Chairman. I know 
you will very ably fill the chair until Chairman DeFazio gets 
here, but I want to thank you and Chairman DeFazio for holding 
this important hearing on congestion and mobility. As you have 
very ably pointed out, this is an issue of great importance to 
not only large cities, but also our fast-growing communities 
around the Country.
    In my own hometown of Knoxville, Tennessee, Knox County has 
a population of about 410,000. Even more than that, though, is 
that we have two interstates that meet in Knoxville and a third 
that comes to within 37 miles outside of the city, so we have 
just many millions coming through there, both going east and 
west and north and south. It has also become one of the most 
popular places in the Country to move to, so as our region 
continues to grow very rapidly, as it is, I am sure that our 
congestion problems will also continue to grow.
    Across the Country, in communities large and small, 
congestion is choking our economy and degrading our quality of 
life. Congestion costs motorists. There are all sorts of 
different estimates, but the most usual estimates you see are 
60 or 65 or 70 billion a year in wasted time and fuel costs, 
and this means that it costs the average person at least around 
$800 a year.
    In addition, congestion has an impact on the cost of moving 
freight. Freight choke points at the Ports of Los Angeles and 
Long Beach, and domestic freight hubs like Chicago, tie up 
goods and raw materials that add to the final cost of just 
about every product we buy. These freight choke points and 
highway bottlenecks are no longer confined to our Nation's 
older large cities; over the past 10 years, transportation 
experts have seen dramatic growth in bottlenecks in fast-
growing cities such as Charlotte, Phoenix, Denver, and Dallas.
    Part of the congestion crisis has been caused by the fact 
that infrastructure investment has not kept pace with the needs 
of the transportation system. We need to come up with a 
comprehensive approach to solving this problem that includes 
additional highway capacity and better access to public 
transportation. I think the Chairman has also pointed out that 
we need to work on programs to encourage people to move back 
into some of our inner cities, and we see that happening in a 
lot of cities around the Country.
    The success of the U.S. economy is dependent, as we all 
know, on a good transportation network that can move people and 
goods around the Country efficiently and reliably. The 
congestion crisis in the U.S. is so bad that the mainstream 
media carries stories on this issue on a regular basis. I saw 
the piece that we are about to show two months ago on NBC and I 
think it does a pretty good job of framing this problem, so we 
will show that. I think it lasts a minute and 50 seconds.
    Hopefully show it.
    Mr. Baird. Look, the traffic is dead-stop.
    [Laughter.]
    Mr. Duncan. Well, can we get some sound?
    Mr. Baird. Mr. Duncan, I think this actually shows how we 
can solve the congestion problem: cars are able to overlap one 
another.
    [Video played.]
    Mr. Duncan. Well, at any rate, thank you. Thank you very 
much, Mr. Chairman.
    Mr. Baird. Thank you, Mr. Duncan. I think we all appreciate 
the message of that, even though it was a little bit hard to 
hear. Most of us probably live with this on a regular basis 
ourselves. When you are just driving around in this town at 
almost any time you experience it.
    The general procedure of this particular Subcommittee is to 
try to limit opening comments so we can hear from our 
witnesses, but if someone is dying to say something important, 
I would be happy to recognize them; otherwise, we will hear 
from our witnesses.
    Mr. Coble?
    Mr. Coble. Mr. Chairman, I will be very brief. You and the 
Ranking Member have already mentioned it, but I think vehicular 
congestion negatively impacts productivity, negatively impacts 
our quality of life, and I thank you for staging this hearing. 
I hate to be the eternal pessimist, but I am afraid that 
congestion is going to get worse before it gets better, but 
hopefully our panel may bring us through this maze. I thank 
you, Mr. Chairman.
    Mr. Baird. Thank you, Mr. Coble. I spoke to the three 
panelists. Actually, we have two panels today. They promised 
that by the end of today they will have all the problems solved 
and we will be able to move forward judiciously to implement 
them.
    [Laughter.]
    Mr. Baird. We are privileged today to have two panels. I 
will read the names of all of them and then we will hear from 
our first panel. Our first panel is comprised of the Honorable 
Jeffrey N. Shane, U.S. Department of Transportation Under 
Secretary for Policy; accompanied by the Honorable J. Richard 
Capka, Federal Highway Administrator. Good to see you again, 
Mr. Capka. And the Honorable James S. Simpson, Federal Transit 
Administration.
    Our second panel will be Dr. Timothy J. Lomax of the Texas 
Transportation Institute; Ms. Peggy Catlin, Colorado Department 
of Transportation, Deputy Executive Director; and Mr. Craig 
Stone from my home State of Washington, the Department of 
Transportation Deputy Administrator for Urban Corridors out of 
Seattle.
    So we have got outstanding people who will, I promise you, 
solve this problem, and all we will have to do is follow their 
sound wisdom and implement the legislation, and everyone will 
drive freely ever after.
    More seriously, though, I look forward to great testimony 
on a challenging topic. Appreciate the witnesses being here.
    Mr. Shane, we will start with you and then proceed in order 
from right to left.

 TESTIMONY OF THE HONORABLE JEFFREY N. SHANE, UNDER SECRETARY 
FOR POLICY, U.S. DEPARTMENT OF TRANSPORTATION, ACCOMPANIED BY: 
THE HONORABLE J. RICHARD CAPKA, ADMINISTRATOR, FEDERAL HIGHWAY 
      ADMINISTRATION AND THE HONORABLE JAMES S. SIMPSON, 
         ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION

    Mr. Shane. In the interest of time, Mr. Chairman, what we 
decided we would do is I'd present the opening statement, and 
then you may have access to all three of us.
    Thanks again, Mr. Chairman and Ranking Member Duncan, 
Members of the Subcommittee. We are very grateful for the 
opportunity to come before you today and testify about this 
important subject, congestion and mobility issues generally. I 
can't tell you how delighted I am to be accompanied by our 
Federal Highway Administrator, Rick Capka, and our Federal 
Transit Administrator, Jim Simpson.
    Last May, the Department of Transportation announced a new 
effort to respond to the growing crisis of congestion in our 
transportation system, the Secretary's National Strategy to 
Reduce Congestion on America's Transportation Network, which we 
often refer to as the Congestion Initiative.
    The President underscored the importance of this effort in 
this year's State of the Union policy initiatives in which he 
directed DOT to work with the States and the cities to utilize 
new approaches to reduce traffic congestion, save fuel, shorten 
commute times. This year's Economic Report of the President 
further amplified the importance of the issue with an entire 
chapter--the first time in the history of the republic--
dedicated to transportation and energy.
    Protecting the public interest requires policymakers and 
lawmakers to consider seriously the fundamental causes of the 
congestion crisis and to enact policy reforms that respond 
directly to those causes. The Congestion Initiative reflects 
the Bush Administration's commitment to keeping our Nation 
moving.
    Let me talk for a moment about the real costs of 
congestion. Transportation system congestion is an enormous 
drag on our economic prosperity and way of life, as the opening 
statements we have heard already this morning have made clear. 
Transportation delay and unreliability costs America, we think, 
an estimated $200 billion a year and have begun to chip away at 
one of our Nation's most important economic assets: an 
efficient transportation system that allows businesses freedom 
of location and the ability to quickly reach customers across 
the Nation and around the world.
    Congestion also imposes substantial costs on our Nation's 
families. We don't often think about this sufficiently, Mr. 
Chairman. Congestion forces parents to miss events with their 
children, limits the time that friends and families can spend 
together, and reduces opportunities for civic participation. 
While difficult to quantify, these social costs of traffic 
congestion are enormous and they are growing.
    America isn't alone in this experience. I represented 
Secretary Peters at an important meeting of transport ministers 
from around the world last week in Sofia, Bulgaria. The entire 
two-day meeting was devoted to the single topic of 
transportation congestion. A great many countries, in addition 
to the United States, are taking aggressive steps to combat 
this problem, which they all believe has the potential to 
compromise economic growth significantly.
    The Department's Congestion Initiative is founded on two 
key premises: first, we do not have to accept growing 
transportation congestion as a permanent feature of our 
national life; second, chronic congestion is the result of poor 
policy choices, a failure to distinguish between solutions that 
are effective and those that are not. The Congestion Initiative 
includes a broad range of activities, not all of which I will 
discuss today. In the short time that I have, I would like to 
focus on the Department's Urban Partnership program, which is 
arguably the most critical component of the entire Initiative.
    Within that program, the Department plans to sign Urban 
Partnership Agreements with up to 5 metropolitan areas that 
agree to implement comprehensive congestion-reducing strategies 
that include congestion pricing, enhanced transit services, and 
increased emphasis on telecommuting and flex scheduling, as 
well as the deployment of advanced technology. In exchange for 
their policy commitments, the Department will support its urban 
partners with financial resources, using current budget 
authority, as well as regulatory flexibility and expertise.
    The Department received applications from 27 metropolitan 
areas, from which we have just short-listed 9 preliminary urban 
partners. We will soon enter into negotiations with all of them 
regarding the specifics of their proposals, following which we 
will select up to 5 final partners. This targeting of 
discretionary grant funding in support of urban partners will 
allow the Department to strategically and intermodally focus 
its scarce discretionary dollars toward national priority, the 
national priority of congestion reduction.
    In closing, let me just commend the Subcommittee for 
holding today's hearing. We all share enormous responsibility 
for ensuring that future generations can experience the freedom 
of an efficient and productive transportation system. It is 
important for Americans to understand that congestion is not an 
insurmountable problem, but that solutions will require a 
smarter approach to capacity expansion, as well as improving 
the productivity of existing transportation assets.
    Thanks again for inviting us, and Administrators Capka, 
Simpson, and I all look forward to your questions.
    Mr. Baird. Good. I appreciate that, Mr. Administrator. 
Thank you for your comments. We want to commend the 
Administration for recognizing the importance of the congestion 
issue. I have a few questions and then I will yield to my 
friend, Mr. Duncan.
    One of the questions I have as I look at our whole 
transportation strategy, which sometimes I think it is over-
complimentary to refer to it as a strategy. No comment on you 
folks per se, but all of us, we seem to approach things post-
hoc and piecemeal. By post-hoc I mean we wait until the 
development or the new construction or whatever has come into 
place and then our constituents come and say, gosh, development 
has exceeded capacity, we need you to scramble post-hoc to get 
the money; and even as we are chasing the money to meet the 
already excessive demand, the new development is going on, 
which will chase us on the next transportation version.
    The second thing I see is for me a question of fungibility. 
In other words, if the real issue is getting freight and people 
to and from their workplace, our transportation dollars tend to 
be dedicated towards just putting more asphalt or bridges or 
whatever the remedy is.
    I sometimes wonder, if we spent that money differently, 
could we actually address the problem more efficiently, and I 
will share with you what one right thinker suggested to me. He 
said he if we spent money on improving our urban schools, we 
could substantially reduce congestion in the outlying areas, 
and the reason was, apparently, if you ask people, why did you 
move from the inner city to the suburban area, oftentimes the 
answer is schools; and the premise being if you had a better 
school in the inner city, people wouldn't have to live so far 
away to get to the schools. So they move outside so their kids 
can go to better schools, and then they drive a long way into 
work.
    So could you address those two issues, the issue of sort we 
are always swinging late, to use a baseball metaphor, but, 
secondly, fungibility? Could we spend our dollars or our 
resources in a more effective way than just laying down 
asphalt, putting up bridges?
    Mr. Shane. Thanks very much, Mr. Chairman. I don't think 
any of us disagree that we could be doing things smarter. The 
idea of comprehensive planning, looking at all sectors that 
affect the transportation problems, the transportation 
equation, it is something you really can't quarrel with. I 
think, within the Department of Transportation, we are 
necessarily slaves to the appropriations process and to the way 
in which our programs are defined.
    We have limited resources within the Department of 
Transportation and they are specifically focused on 
infrastructure. The Congestion Initiative is an attempt, within 
the scope of what is available to the Transportation Department 
to do, to try to use that money in a smarter way, and that is 
why the urban partnerships that we are engendering right now 
are being graded on their ability to look across the board at 
smart solutions; not just more asphalt, as you say, but the use 
of technology, the use of flex scheduling for our workforce, a 
variety of approaches which go beyond the traditional 
transportation solutions and address the problem of congestion 
in a more holistic and societal way. But there are real 
limitations in that within, as you know, the transportation 
programs, so perhaps more intergovernmental interagency 
coordination with respect to transportation is something we 
should be focused on to a greater extent.
    Mr. Baird. I appreciate that and understand well the 
limitations. I guess I would just invite you folks to feel free 
to share with us--we always refer to thinking outside the box; 
I think I would say think outside the freeway a little bit--if 
you feel there are options to be more efficient. The goal is to 
get goods and services and people to and from where they need 
to be in the most efficient way, and there may be a lot of ways 
to do that.
    And if there are better ways to do it but your hands are 
tied, I would appreciate the feedback about we look at some of 
those alternatives, not only for the issue of congestion, but 
congestions directly related to consumption of our fossil 
fuels, which affects our foreign policy, which affects our 
environment, etc., etc. So anything we can do to not just focus 
on what our own stovepipe authorization or appropriation is, 
but on what is the most effective way to actually achieve the 
goal would be most welcome.
    With that, I would yield five minutes to my friend and 
colleague, Mr. Duncan, the Ranking Member.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    First of all, I want to commend all three of you because, 
while we talk about these problems here, it is pretty clear, as 
I travel to other countries and read about what is going on in 
other countries, that we have by far the best transportation 
system in the world; it is just that you always need to be 
trying to improve and get better, and we do have some of these 
problems that we definitely need some work on.
    Mr. Shane, in the aviation sector they always say that 
roughly 70 percent of the delays are caused by weather. What 
percentage of the delays on the highways are caused by weather, 
accidents, work zones, things that are at least partially or 
totally out of your control?
    Mr. Shane. Thanks for the question. It is an excellent 
question. We think that what we characterize as non-recurrent 
delays attributable to accidents, incidents, weather, the like, 
represent something like 60 percent of the delays that we are 
dealing with today. So, therefore, we actually are focused to a 
great extent on trying to address some of those. Better 
incident management produce enormous dividends.
    Federal Highway Administration has a really forward-looking 
program on weather as it affects our surface transportation 
system, something that is not recognized enough. We are doing 
that in close concert with NOAA and really delivering 
tremendous amounts of better information to communities around 
the Country so that they can manage their resources better. But 
this is a very important part of the congestion problem, no 
doubt.
    Mr. Duncan. I understand that this urban partnership that 
you are talking about you have narrowed down from, now, I 
think, 27 cities to 9 cities, and you are going to narrow it 
down to 5 more, is that correct?
    Mr. Shane. That is correct, yes, sir.
    Mr. Duncan. And the plan is that you are going to spend 
approximately $1.1 billion on that? That is the figure I have. 
I just figured how that money was going to be spent. How is it 
primarily going to be spent, is that going to be up more to the 
Department or is that going to be up more to the local cities, 
and are they going to submit proposals on what things they want 
to try, or how is that going to work?
    Mr. Shane. Yes, Congressman Duncan. The applications came 
in pursuant to our request for applications. We will end up 
with, we hope, 5 final urban partners. The funds that are 
dispersed to them will be dispersed pursuant to current 
statutory authority, pursuant to the programs that are 
currently available to us, targeted to initiatives which fit 
within the framework established by statute by emphasizing 
congestion relief through a variety of different tools.
    I think the $1.1 billion--I will ask Rick Capka to talk to 
this a little bit, as well as Administrator Simpson--that is 
money that would be available to the States in any event. We 
are simply attempting, again, to use these programs in a 
smarter way. The President's budget for fiscal year 2008 
includes--or, I am sorry, is it 2007?--2008, forgive me, 
includes $175 million of found money, we think, money that had 
been earmarked for other purposes but not spent, such that we 
actually can increase the amount of money that would otherwise 
have been available for this purpose. But the rest of the money 
is money that would have been received by the States in any 
event, but, Administrator Capka, perhaps you want to supplement 
that answer.
    Mr. Capka. Thank you, sir.
    Ranking Member Duncan, that is a great observation, a great 
question, and as Mr. Shane said, the Urban Partnership 
Agreement aspect to the Congestion Initiative is right there at 
the center. In addition to the funds that Mr. Shane talked 
about, we have discretionary funds in the Federal highway. With 
the 2007 appropriations process, we were given discretion that 
we did not have before, so it is another $300 million that we 
have to work with within Federal highways.
    Of course, as Mr. Shane said, those dollars will first meet 
the statutory requirement, as they have to do, and will support 
the programs under which those programs were authorized and 
appropriated, but we will apply those to wherever they can fit 
best within these urban partnerships as another criteria that 
we would include in the process there.
    Mr. Duncan. Mr. Simpson?
    Mr. Simpson. Yes. I guess traditionally, in the past, the 
DOT was pretty much stovepipe. Highways did their thing; 
transit did their thing. We have got this slogan: one DOT. So, 
strategically, together, we are looking at where we can best--
highway and transit and other modes--come together to have a 
synergistic relationship with our stakeholders, and a lot of 
that is from the implementation of SAFETEA-LU.
    SAFETEA-LU said to us very early, with the MPOs and 
planning, we are not just going to look at building another 
highway; what is the problem in the corridor and is it best 
served with transit or is it best served with highway. Also, 
the flex funding that we have, the CMAC funding that allows 
funds to be flex and the STIP funding over to transit. So we 
are working as a unified, cohesive one DOT in order to get this 
done within the statute.
    Mr. Duncan. Well, I want to give these others a chance to 
ask some questions, but let me just ask all three of you what 
is the initiative or what do you see for the near future that 
you are the most optimistic about? What proposals are out 
there, a proposal that you have seen that you think is going to 
make the most improvement in relieving some of this congestion, 
increasing mobility? What are you the most hopeful about?
    Mr. Shane. I will take a crack at it and then we will ask 
our----
    Mr. Duncan. What is the best idea that you have seen 
recently?
    Mr. Shane. To my mind--and I am not sure we all have the 
same answer, but my answer is pricing strategies are probably 
the most important near-term fix we can deploy. With the advent 
of electronic tolling, which really reduces--and not just by 
virtue of not having to stop at a tollbooth makes a big 
difference, but being able to calibrate price and keeping with 
demand, really keying the cost of using the facility to the 
amount of congestion that is on the facility.
    Not just in the United States, but around the world, this 
is probably the most important advance, I would say, in 
transportation planning that we have seen. Not without 
controversy, to be sure--we are all aware of that--but we see 
wherever this pricing strategy has been used as a new tool for 
congestion management, in addition, of course, to raising 
revenue, the public embraces it, notwithstanding the fact that 
we know all of the mousetraps that a pricing strategy may pose 
to segments of the community. Nevertheless, we see broad 
support for pricing strategies in those communities which have 
actually adopted them because of the results that they deliver.
    So that would be my first answer, but, Administrator 
Simpson, perhaps you have an answer.
    Mr. Simpson. Congressman, some project that I am really 
familiar with from my hometown in New York City, just for a 
moment, back in 1985 I ran a trucking company and I would send 
out about 100 workers a day and maybe 15 to 20 trucks from 
Staten Island, New York, which, in the most recent U.S. News 
and World Report is the number one community in the Country 
with gridlock. So that is where my corporate headquarters was.
    We would pay these 100 workers on an hourly basis, and from 
my depot it was 15 miles to the center of Manhattan on one 
interstate, Interstate 278, which, by the way, has not expanded 
since the early 1960s. It would take our drivers 45 minutes, 
and with traffic at the time, at the most, an hour each way, 
from depot to job site--let's call it the Empire State 
Building--and back to the depot.
    Three years ago and today it is taking over two hours each 
way. So these high-paid workers at a fully loaded cost of $25 
to $30 an hour, with a $100,000 truck, you can do the math. 
They are spending four hours in the truck, totally 
unproductive, for eight hours work. So that is a 50 percent 
waste in productivity. These are real dollars.
    Now, New York has been very bold, so they--let me first 
start by saying the Department has been going all over the 
Country--this is not a static thing, this is a dynamic thing. 
The Department has been going all over the Country talking 
about these solutions like this urban partnership. New York is 
really bold. What they are proposing now, which is going to 
take some legislation, but almost everybody is on board, to 
have an access fee, similar to London, south of 86th Street to 
Lower Manhattan to free up maybe 5 or 10 percent of the traffic 
so that the goods and services.
    And by the way, those trucks that are traveling to 
Manhattan every day, people on Express Buses, which is a 
misnomer, stuck in the same traffic two hours each way, so the 
Express Buses are not the express buses. We have this limited 
capacity. So New York has got this bold initiative, which 
includes a pricing initiative. There will be a transit 
component and maybe a highway component to it.
    So we are looking to see how we can take our resources--our 
financial resources, our technological resources--and help New 
York with that to break this gridlock. And the beauty of this 
program is whatever we invest in now, Mayor Bloomberg said that 
this congestion pricing will throw off about $300 million a 
year to finance such things as a $6 billion or $7 billion 2nd 
Avenue subway, more Express Bus service, and all those things 
so the commuters and everybody else can get to work in a lot 
less time. That is the real problem, and that problem plays 
itself out, maybe not to that magnitude, but it plays itself 
out in probably 50 to 60 cities around the Country day in and 
day out.
    Mr. Duncan. Thank you.
    Administrator Capka?
    Mr. Capka. Sir, that was a great question you asked, and I 
think one of the things that excites me about the Congestion 
Initiative is not just one piece that makes progress for us, 
and I would like to kind of take an example. I think you have 
heard the pricing piece, but there are a lot of efficiencies 
and innovation, and the program itself is designed to stimulate 
innovation; not prescribe steps that need to be taken, but 
really reach out and tap the creativity that is there.
    In our Highways for Life program--you had asked a question 
about non-recurring congestion and the impact, and Mr. Shane 
mentioned it takes up about 60 percent of the congestion. Our 
Highways for Life program reaches out and looks for new 
construction techniques to minimize the work zone exposure 
time; get things in and out very quickly and have them last 
longer.
    You have probably seen images of bridges being floated 
down, fully complete, on a barge, raised and put into position 
overnight so that the driving public did not have to go through 
the inconvenience and congestion associated with reconstruction 
onsite. These are examples that are occurring across the Nation 
right now, and we are trying to, rather than have them the ad 
hoc examples of excellence, to make them mainstream, and the 
Congestion Initiative is focusing on that side of the equation 
as well.
    Mr. Duncan. Well, thank you very much. Very interesting 
answers.
    Mr. Chairman, thank you.
    Mr. Baird. The gentleman from California, Mr. McNerney, is 
recognized for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I was definitely 
intrigued by some of the discussion so far. In fact, the 
Chairman's comment about schools being better funded in the 
urban areas might actually have some impact. I have also 
noticed that in our region school buses aren't funded, so a lot 
of parents are dropping their kids off, and that causes a lot 
of early morning and late afternoon congestion.
    But in terms of Federal actions, you are talking about 
advanced planning being important, regional transportation 
authorities, things like flex schedules and telecommuting. How 
can we, at the Federal level, help encourage those kinds of 
behaviors and regional transportation authorities to do the 
kind of work that is needed for future planning in congested 
areas?
    Mr. Shane. Thanks. We think the answer is to create 
incentives through programs like the urban partnership program, 
in other words, provide a reason why local planning 
organizations and State transportation departments need to 
think more aggressively about how to implement teleworking, for 
example, or encourage teleworking among businesses throughout 
the region.
    The Urban Partnership Agreements program is designed by 
rewarding innovative applications to stimulate that sort of 
thinking, and we think that it is in fact already doing that. I 
am not suggesting there isn't an awful lot of creativity 
already there, but strong Federal leadership, the use of the 
bully pulpit and the use of our programs, to the extent that 
they make it possible, to encourage some of this innovation are 
probably the ways to go.
    Mr. McNerney. Well, in the Bay Area, which is my home area, 
we had an incident lately where a crash took down one of the 
highways, and the Caltrans had that replaced within about a 
month, and, boy, I would like to see some way that the Federal 
Government could encourage that sort of aggressive and 
efficient repair or planning that could get things done.
    You also mentioned Bulgaria, which was interesting, because 
in Eastern Europe I know they don't have as many cars as we do, 
but they are already experiencing congestion? Is that because 
their infrastructure is less capable than ours, or what is the 
scenario going on over there?
    Mr. Shane. So many countries in Eastern Europe, 
particularly those that have recently joined the European 
Union, are experiencing unprecedented economic growth and, 
predictably, that is producing more real personal income, more 
vehicles on the roads, just as is the case in developed 
economies like ours. That increase in vehicular use and traffic 
is far outstripping the pace at which they are able to increase 
their infrastructure.
    But the meeting was in Bulgaria not because of a unique 
congestion problem there, but because it just happened to be 
the venue for a global meeting. We had ministers of transport 
from around the world basically telling exactly the same story; 
not just in their urban areas, but across all segments of their 
societies.
    Mr. McNerney. I have one other comment. You were talking 
about congestion pricing. That sounds a little bit like a tax. 
How does that work? You said that it is acceptable to the 
population. How do they react to that sort of thing? Does it 
cause more problems by pricing? How does it work?
    Mr. Shane. Well, it can work in a variety of different 
ways. There are cities in other countries where they have 
established cordoned pricing, something that New York is 
beginning to think about now. Administrator Simpson was talking 
about Mayor Bloomberg's thinking on this front. You put a 
charge in place that you get charged if you want to drive your 
car into the inner city everyday, and that charge is at a 
sufficient level, maybe what economists would call a market 
clearing price, that it actually does drive an awful lot of 
traffic out of cars, personal vehicles, and onto public 
transportation. And if you can just reduce the vehicular use by 
even 5 to 10 percent, you make a tremendous amount of 
difference in the flow of traffic.
    We experience this in Washington every August, when we have 
a number of us go on vacation. Well, the actual reduction in 
vehicular use during August in Washington is probably not more 
than 5 or 10 percent, but it is a different world during that 
month just because of that small reduction. So cordon pricing 
is one approach to it.
    But just variable tolls on roadways used for commuting 
purposes area a way of ensuring that a lot of discretionary 
traffic, traffic that wouldn't have to be there during rush 
hour, chooses a different time of day. That is the whole idea. 
I mean, congestion pricing is precisely what it is, it is meant 
to reduce the peak load on our assets such that they have a 
much longer and more efficient life.
    With electronic tolling, of course, it is very easy to vary 
the level of the toll during the day, and we have seen a lot of 
successful examples of that, particularly in California.
    Mr. McNerney. Well, I understand in ancient Rome they 
didn't let certain vehicles on the road during the day; they 
had to use the roads at night. So maybe that is sort of an 
approach that would be useful too.
    Mr. Shane. I think we are doing that in many places. Modern 
Rome, Administrator Simpson said, is still doing that.
    But there is no question but that rules of that kind can 
make a tremendous amount of difference consistent with, of 
course, the need for people and businesses to use those roads.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Baird. Thank you.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you all with us this morning, gentlemen.
    Mr. Capka, let me ask you this question. The primary focus 
of the Congestion Mitigation and Air Quality program seems to 
be improving air quality, as opposed to relieving congestion. 
But would not relieving congestion inevitably result in air 
quality improvement?
    Mr. Capka. Sir, that is an accurate observation. In fact, 
the CMAC program that you referred to does focus on air 
quality. In fact, the application of the program is designed to 
work in areas where the air quality has not reached standard. 
But the C in the CMAC program is for congestion mitigation, and 
in the program, as it has worked over, oh, a number of years, 
73 percent of the projects--and these are State discretionary 
projects--focus or at least have an impact on congestion. So 
there is a direct application of congestion mitigation 
associated with the program.
    I will say that it is a State administered program and the 
States set up the priorities for it. For our Federal Congestion 
Initiative, we don't have the discretion to work those dollars 
as effectively as some of the other discretionary programs we 
do have.
    Mr. Coble. I thank you. Not unlike most every district, 
probably, congestion is a growing issue. In my district there 
are two major interstates, I-85 and I-40, that are vital 
corridors. Furthermore, there is a third project, I-73/74, 
which has work progressing, which will add another thoroughfare 
to hopefully reduce growing demand. I also believe it is 
important that we continue to promote mass transit--as I 
suspect you all do--as a way to reduce congestion and offer 
commuters an alternative.
    My question is this. In light of these efforts, how do you 
all balance funding to add additional capacity on existing 
infrastructure, on the one hand, as opposed to promoting 
alternatives to reduce congestion?
    Mr. Capka. Sir, we have encouraged States and local 
planners to take a holistic view of transportation 
requirements, and as was suggested earlier, early in the 
planning process is where these kinds of balancing decisions 
are taken. As Mr. Simpson mentioned earlier, we are trying to 
set the example with our Congestion Initiative to show how all 
modes of transportation can come together and seek a balance in 
terms of how we move freight or how we move people from point A 
to point B. So a major foundation piece in the Congestion 
Initiative is to ensure that we are looking across all modes of 
transportation.
    Mr. Simpson. If I could add on, Congressman.
    Mr. Coble. Sure.
    Mr. Simpson. Secretary Peters just had an executive one-day 
planning conference to come up with 21st century solutions to 
our problems today, and one of the questions was how do we 
increase capacity with existing infrastructure, because we 
don't have a blank check. So she challenged everybody in their 
mode to go back and to turn research upside down and do all 
those other things.
    On the transit side, we are doing a lot and it has been an 
ongoing thing. A perfect example is rather than have a new--
let's say you need more capacity on the Metro. Rather than 
putting in a new line, you elongate the stations so that they 
could accommodate more cars.
    Secondly, technology has really done a lot for us not only 
in rail, but also in bus. But if you look on the rail side, 
with the signaling technology today, you can run trains closer 
together so you can get more throughput in the same fashion.
    Those are just two examples. So we have been hammering away 
at that in all the modes on transit and we have been working 
with the stakeholders, and trying to squeeze more capacity out 
of existing infrastructure is the number one priority at the 
Department.
    Mr. Coble. I thank you.
    Mr. Shane, do you want to add anything to that?
    Mr. Shane. No, sir.
    Mr. Coble. All right. Thank you.
    Yield back, Mr. Chairman.
    Mr. Baird. I thank the gentleman.
    Elijah?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Secretary Shane, can you give us an update on the state of 
the Highway Trust Fund?
    Mr. Shane. I would like to defer to our Federal Highway 
Administrator, who is in charge of writing the checks out of 
the Highway Trust Fund and probably can give you a much more 
relevant answer.
    Mr. Cummings. That is fine.
    Mr. Capka. Congressman Cummings, that is one of the major 
topics we have going on between the Administration and the 
Committee here, is the status of the Trust Fund. As you know, 
during SAFETEA-LU, in order to reach the $286.4 billion size of 
the bill, we had to spend down the balance in the Trust Fund, 
so we consciously took a look at the Trust Fund and decided 
that at the end of 2009 we would not have an extra dollar in 
the Trust Fund.
    Because we are spending down the Trust Fund, it is clear 
that revenues are not keeping up with the current level of 
expenditure. At the end of 2009, we will have to take a look at 
how to restructure and re-look at the financing of highways. We 
may or may not get to the complete end of 2009 before we have a 
problem, and we are looking at that very carefully. In our 
budget submission for 2008, we have made some recommendations 
in order to mitigate the potential that the Trust Fund would 
not be able to support full SAFETEA-LU funding before the end 
of the SAFETEA-LU period.
    Mr. Cummings. Well, in the longer term, do you believe that 
the gas tax can or will continue to be the primary source of 
transportation funding at the Federal and State level? If so, 
why? And, if not, what funding mechanisms do you believe are 
most likely to be able to supplement the gas tax?
    Mr. Capka. Looking into the future, the interesting thing 
about the gas tax from the highway infrastructure perspective, 
the more gas we burn, the better for revenues coming into the 
Trust Fund. It is counter to national programs that we have, 
national priorities with respect to dependency on foreign oil, 
with respect to the greenhouse effect and the carbon loading. 
We certainly don't want to encourage the continued use of 
fossil-based fuels.
    So I would say, looking into the future, we have got to 
find ways to weaning ourselves off of the gas tax and looking 
to something perhaps like vehicle miles traveled, as is being 
experimented with in a couple of States, Oregon being one, 
where vehicles are in this pilot program. They are not charged 
gas tax when they fill up at the fuel pump; they are charged 
for the miles they have traveled and the periods they have 
traveled, much like a taxi meter rolling up a taxi fare.
    I think there are innovations like this with the technology 
that is emerging, with our sense that we are going to have to 
use some technique to help also throttle demand on our highways 
to work congestion, that these types of solutions are the ones 
we need to be experimenting with today, looking at them very 
carefully, and then working them into our long-range plan for 
the funding of the highway system.
    Mr. Cummings. Well, what, if any, steps is the 
Administration taking in its Congestion Initiative to promote 
improved land use planning and to create the kinds of 
communities that can shift people from cars to other modes of 
transportation?
    Any of you.
    Mr. Simpson. Congressman, on the transit side, you know, 
our discretionary program, which is for new fixed guideway 
systems like rail--and Baltimore has plenty of rails, so you 
understand that discretionary program--one of the things that 
we look at in statute and we pay very close attention to is the 
development around stations. In order to have sustainability, 
you need to have the right density. So we look for cities in 
area--while it is a local decision--if they are going to get 
funded with the Federal dollar, to make sure that they have 
good land use patterns that are supportive to transit 
investment.
    We are a big supporter of transit-oriented development and 
we have got, additionally, HUD and FTA have a MOU, and we just 
completed a report and sent, I believe, to this Committee 
talking about not only housing around transit, but affordable 
housing, as well; that the people that need transit the most 
have to be able to live near where transit is and have to be 
able to afford to live so they can access transit and have 
mobility.
    Mr. Cummings. All right, thank you.
    I yield back.
    Mr. DeFazio. [Presiding] I thank the gentleman.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    I thank the gentlemen for coming and giving us all this 
good information. My question is to the Under Secretary. We 
have heard a lot about the corridors of the future. Can you 
tell us a little bit more about how the Department is defining 
the corridors? Would it be on a case by case basis based upon 
the application submitted to the Department or based on need. 
How would that be determined?
    Mr. Shane. Thanks, Congressman Brown. Yes, we received 38 
proposals under the Corridors for the Future component of the 
Congestion Initiative. We, so far, selected 14 of them last 
February. We are going to winnow that list down--we have been 
working on that for quite some time--to the point where we are 
going to finally have five that will be chosen by the middle of 
the summer, we expect.
    Clearly, what we are attempting to do in the Corridors for 
the Future program is reward comprehensive planning that is 
designed to link together various regions of the Country in a 
productive transportation thoroughfare that will benefit not 
just one community, or even a group of communities, but a 
number of States, really enhancing the flow of commerce and 
trade in a much more effective way.
    Mr. Brown. And you will be able to identify those by the 
summer, those five?
    Mr. Shane. By mid-summer, I think.
    If you have anything to add, Rick.
    Mr. Brown. And what will be the next step after the 
identification?
    Mr. Capka. Sir, the selections will be made mid-summer. At 
that point an agreement will be set up with the sponsors for 
the Corridors of the Future, setting up the objectives and 
milestone deliverables, those sorts of things, and we will work 
then very carefully with them to provide the support resources 
that we have available in that program.
    Mr. Brown. I noted that there has been a lot of pressure on 
the Department of Transportation, I guess, since 1954, when 
they started the interstate system, and not much has been done 
about enhancing it since then other than maybe expanding the 
number of lanes, and that sort of thing. I think the Corridors 
of the Future is certainly a great innovative thing to look at 
doing some new planning based upon the population shift.
    I know down in my region--I represent South Carolina, which 
is a tourist destination, but we also have a port, which is a 
commerce destination, too, and I know that we have one 
interstate connecting Charleston. We don't have any interstates 
connecting Myrtle Beach, which has 14 million visitors a year 
coming. So you can imagine the congestion we have during the 
summer months. But I would hope that those criteria would be 
placed upon whatever selection process you might have so that 
those type situations would be included.
    I know, Mr. Under Secretary, we talked about dealing with 
the shortfall of the Trust Fund, and I know that your idea 
about using miles driven, rather than gasoline purchased, 
because of the increase of the efficiency now of the new 
automobiles and constraints placed upon the carbon emissions, 
this sort of thing. How would you go about collecting miles 
driven? How would a user be able to tell you that?
    Mr. Shane. There are a number of technologies, Congressman, 
that are being experimented with right now, not the least of 
which is the use of GPS. You simply have a transponder on a car 
and it is possible to monitor the movements of the vehicle. 
There are ways of protecting the privacy of the owner and so 
forth, which obviously have to be part of the program, but 
which end up being metered automatically and just producing an 
invoice at the end of every month which goes out and is paid. 
That is one way of doing it. Meters in cars which could be 
automatically read would be another way of doing it.
    There is no question that there are technologies around, 
and it is something that we are not experimenting with in the 
United States alone. I know The Netherlands is actually 
thinking about--and I just learned this last week--a national 
program for metering vehicle use and charging for that use by 
the kilometer, rather than a fuel tax.
    The fuel tax, as my colleague said eloquently, is a way of 
penalizing ourselves. If we increase the fuel tax, we are, in 
effect, penalizing ourselves for having achieved fuel economy 
objectives that we all share and that we are trying to make 
tougher and tougher over time. There is a real conflict in the 
effort to reduce our reliance on fossil fuels and our reliance 
on those very same fuels as a source of funding for our 
transportation infrastructure, and that is what we are trying 
to de-link.
    Mr. Brown. How do you plan to fund the Corridors of the 
Future?
    Mr. Shane. Out of existing Highway Administration funding.
    Rick, you can be more specific than I on specifically where 
that money is coming from.
    Mr. Capka. We do have some discretionary dollars that have 
been made available to us this year. In our 2008 budget 
submission we have asked for $175 million to be reprogrammed 
from ISTEA era, 10 year old projects that have been inactive 
with unobligated balances, that would also be made available to 
support these programs.
    Mr. Brown. Very good. Thank you very much.
    Mr. DeFazio. I thank the gentleman.
    Mr. Lipinski?
    Mr. Lipinski. Thank you, Mr. Chairman.
    Thank you for your testimony here today. In Chicago land, 
where my district lies, is one of the most congested regions in 
the Country, and my constituents and millions of others in 
Northeastern Illinois deal with this everyday. Now, much has 
been done to provide resources to State and local governments, 
but I think that we definitely need to do more. First and 
foremost, we need to continue to enhance investments in surface 
transportation capacity expansion projects.
    One of the most important in the Chicago region is CREATE, 
the rail modernization program, which would do a tremendous 
amount to help move freight in and out and through Chicago; 
help with the commuter rail, Amtrak lines; but also help to 
clear up congestion on roads by building underpasses, 
overpasses, you know, grades separations.
    So I think there is no question that we need to continue to 
do more and provide more funding for projects like this, but in 
the short term ITS can make a real difference in fighting 
congestion through operational improvements and demand 
management. We really have the technology available--it is 
growing more and more everyday--to help people to get traffic 
information, make it easier, try to make the commutes easier 
for them. This is another area, though, where I think that we 
can do more for State and local governments.
    Last year I met with former Secretary Mineta, and we talked 
about congestion in Chicago land and about the Congestion 
Initiative. We had a very productive discussion at that time.
    Today I just want to ask you in specific terms, with 
particular emphasis on any ITS applications, how can the 
Initiative help reduce congestion in the Chicago area.
    Mr. Shane. Thanks very much, Congressman. Let me just, 
first of all, say that at the Department of Transportation we 
think CREATE is one of the most important projects that the 
Country needs to focus on. It is not just of significance to 
Chicago, as you know, but given Chicago's role in the national 
freight movement system, CREATE has a tremendous amount of 
potential benefit to the Country at large. So we look forward 
to seeing further progress on CREATE.
    To your specific question about ITS, we are, through the 
Urban Partnership Agreements component of our Congestion 
Initiative, trying to encourage further deployment of ITS 
solutions, intelligent transportation system solutions, that 
really deploy technology for the benefit of reducing congestion 
in ways that are probably the most cost-effectively means we 
have of reducing the load on our existing transportation 
assets.
    This is, again, without quarreling with the need to 
continue to expand capacity. That is, of course, the central 
point of our transportation programs. Nevertheless, we know 
that it takes time to do that and, therefore, the efficiencies 
that can be gained by the use of intelligent technologies--and 
they are available and on the shelf today, as we all know; what 
they need is greater ubiquity--the use of those technologies 
have huge potential for helping to address some of the problems 
that we have both in our urban and rural areas.
    Administrator Simpson would like to supplement that.
    Mr. Simpson. Congressman, I have been out to Chicago a 
couple of times, meeting with Frank Kruesi, who I believe is no 
longer with the CTA, and also met with Senator Durbin, and 
Chicago is a great city, and the whole area, in terms of their 
ridership. Chicago area is actually number two in the Country 
for transit ridership; you are at about 12 percent. New York is 
25 and Chicago is number two.
    But you are also number three in the Country for 
congestion. So there is obviously a need to make some change, 
so I would encourage you to work with the local folks to take a 
look at what is happening in New York, because maybe if that 
passes, to try to implement some sort of a model like New York.
    But with respect to the rail mod money, it has been doing a 
really good job for the Chicago Transit Authority. They are 
upgrading their signalization, their tracks. It is a very old 
system, as we know, but it seems like they are doing a great 
job and they are trying to get, I know, a great amount of 
needs, and they are looking at alternative sources for transit 
funding. The New York model today will spin off hundreds of 
millions of dollars that can go to transit projects, so I think 
that the folks in Chicago, if they take a look at what may be 
happening in New York, but what certainly has happened in 
London, it might help alleviate some of the extra pressure.
    Mr. Capka. Sir, also from kind of a low tech, but high tech 
with respect to ITS, is providing decision-quality information 
to drivers; when you should get out on the road or where there 
is congestion, when to avoid. The 511 system is a dial-up 
system that links a driver up with the latest traffic 
information, where you can determine where there are 
construction problems, an incident that has occurred, or just 
the regular congestion that allows the driver to make some 
smart decisions before going out on the road. Something like 
that can do an awful lot to address congestion problems, 
particularly in Illinois.
    Mr. Lipinski. Well, I thank you for your responses, and I 
want to also follow up and agree with Mr. Simpson that transit 
is very critical, and with the great needs right now that we 
face in Chicago, but certainly in other places around the 
Country, I think that is another place where we need to have a 
greater Federal commitment, because it does a great job of 
reducing congestion. Cutting down pollution is to support 
transit.
    Thank you.
    Mr. DeFazio. Thank you.
    Representative Reichert.
    Mr. Reichert. Thank you, Mr. Chair. I have just one quick 
question, and if it has been asked already, I will get it over 
the telephone later, so I apologize. I was reading through the 
testimony and noticed that you want to establish a competitive 
process for designing up to five multi-State Corridors of the 
Future. Has that process been started and have the five 
corridors been identified, or where are we in that process?
    Mr. Shane. Thanks, Congressman. Yes, we actually did talk 
about that earlier. We are well into the process. We received 
38 proposals back in February. We are winnowing those down to a 
list of 5, which will be announced in the middle of the summer 
sometime.
    Mr. Reichert. Do you happen to know if the Seattle area is 
one of the 38 that has applied?
    Mr. Shane. I-5, Administrator Capka tells me, was certainly 
one of the corridors that was proposed, yes, indeed.
    Mr. Reichert. Okay, thank you.
    Mr. DeFazio. Thank you. I want to apologize for being late. 
Sometimes there are imperatives that relate to one's district, 
and we had a meeting with our former colleague, Mr. Portman, 
and OMB to discuss an issue of extraordinary concern to my 
district, so I was unavoidably detained.
    I would like to go to Mr. Shane's testimony. I guess maybe 
I live in a little different world or hear from different 
folks, but when I read today a growing course of economists, 
academics, transportation planners arguing that fundamental 
mis-pricing of highway travel must be addressed to tackle the 
congestion problem in a sustainable way, and prior to that you 
say there are there basic mechanisms available: one, rationing; 
two, formally allocating access rights to use the network at 
various times, as is done in the rail and aviation sectors; or 
three, using prices, as we do with most other goods and 
services.
    I guess the question for Secretary Shane, which I posed to 
Mr. Duvall, when he came and waxed eloquent about the 
congestion problems, all things we are having, is what about 
investment? There is no discussion, except in the context of 
the private-public partnerships, about investment.
    You might recall the President's own Department of 
Transportation, during the consideration of SAFETEA-LU, said we 
needed $375 billion to basically keep up. That was their 
estimate when we started the discussion. This Committee wanted 
to work toward that number, and that just couldn't happen 
between Congress and the White House. The President started at 
250; we ended up around 280.
    But it seems to me, if we are going to say there are ways 
to address this, number four might be significantly enhanced 
investment at the Federal, State, local, and, yes, even the 
private level. But we are talking about rationing and using 
prices and the growing chorus of mis-pricing of highway travel. 
That is not what I hear from people. They say when are you 
going to improve the off-ramp; when are you going to add 
another lane; when are you going to give me an alternative. 
They are not saying, gee, it is mis-priced. Granted, I come 
from the West Coast, and we are not as enamored of tolling as 
perhaps some people are here on the East Coast.
    So that is sort of the first question. Does investment play 
a role here? Does the Administration have a position on 
investment? Are you looking at 2009, when the Trust Fund might 
be depleted, and do you have any solutions for how we might 
fund the existing program in that year?
    Then the second question would be sort of on the whole 
theory of pricing people off the highways. You use the example 
of a doctor and someone going shopping. But what if the doctor 
was going shopping? Might the doctor, because of his high 
discretionary income, decide, well, he is not on the way to an 
emergency at the hospital, so it is not time sensitive in that 
way, but he is going to use the HOT lane because he can afford 
to?
    I mean, I think the thing that is being overlooked here is 
people don't choose when they go to work. People don't 
necessarily have tremendous discretion over where they live. I 
would use Portland, Oregon as an example. The Metro Council 
there is enamored of some of these ideas and being pushed by 
DOT, until I disabused them of the notion. Middle income, lower 
income people can't afford to live in the city; that is a fact. 
So they have to live further out. We don't happen to provide 
alternatives that go across the city for them to get to work. 
Well, I guess they are just out of luck, or maybe they have got 
to find a new job, or they are going to pay an extortionate 
amount to get to work that they can't afford on their salary.
    It seems to me that we are skipping over a whole lot of 
issues here, and I wish you would address those, Mr. Shane, the 
first being investment and the second being the inequities and 
the problems that are potentially created when people don't 
have a viable mass transit option and they just happen to work 
one place and live another, or it is a single mom who has got 
to get their kid to school and get to work and pick the kid up 
after school and there is no transit option available for that 
and she can't afford 20 bucks to use the HOT lane.
    Mr. Shane. Thanks very much, Mr. Chairman. Let me just say, 
in response to the first part of the question, that we are 
talking about shades of emphasis here. There is no intention on 
the part of the Department of Transportation to de-emphasize 
investment.
    Mr. DeFazio. Well, we just never hear any talk about it. I 
mean, Mr. Duvall was here; he didn't mention it. It seems to me 
if you say there are three ways to deal with congestion and 
none of them mention enhanced investment----
    Mr. Shane. Well, we do talk about enhanced investment. That 
was the public-private partnerships part of the Congestion 
Initiative. There is not any quarrel with----
    Mr. DeFazio. That, again, would be a fraction compared to--
if you have heard all the testimony from the experts, they say 
maybe it is a 5 percent solution, public-private partnerships. 
Mr. Duvall was here. So let's say it is even a 7 percent 
solution. What about the other 93 percent, which requires 
State, Federal, and local investment? We need to address those 
issues and I see a very unbalanced presentation.
    Mr. Shane. What we are emphasizing is what is different in 
our proposals today. There is not any quarreling with the 
existing program, and I expect that that program will continue 
in some form going forward. We did have, I think, a productive 
discussion with Congressman Cummings about whether or not an 
increased gas tax is necessarily a formula for future success 
and tying our infrastructure finance to fuel that we are trying 
to reduce the consumption of. There is a fundamental conflict 
in our policies in that regard and we have to address that 
conflict.
    But it is not to gain, say, the notion that more investment 
is necessary. We happen to think that there are hundreds of 
billions of dollars--that is what people tell us--available in 
the private sector, money that is available for transportation 
infrastructure and that we should tap. We should do it 
intelligently.
    I have seen the correspondence from the Committee. I don't 
have any quarrel with many of the points that were made in that 
correspondence. We do have to calibrate the use of these tools, 
but these tools are, nevertheless, available to us as a means 
of enhancing the amount of investment that we put into our 
infrastructure. And they are not just ideas that are brewing 
here.
    I mentioned in my testimony that I was overseas last week. 
I learned that these are tools that are being embraced, in 
fact, far more readily in other countries than they are here. 
We just wonder why it is that we are having so much difficulty 
marching in the same direction when it seems to be producing so 
many successes in other countries.
    So I don't want to mislead the Committee. Investment will 
continue to be a core objective of all of our programs. We 
intend to work with the Committee, and this Subcommittee in 
particular, on trying to find intelligent ways of doing that. 
What we are trying to do, however, recognizing the extent to 
which demand has outstripped our capacity to invest through 
traditional means--and that is to say at the Federal level--is 
find additional solutions; the use of technology, the use of 
pricing strategies, things that are producing real dividends 
and addressing congestion in lots of parts of this Country and 
other countries which, if we could make more ubiquitous, would 
produce enormous dividends in terms of the quality of life and 
the productivity of our economy.
    Regarding the whole question of inequity, we are mindful of 
that and it has certainly been a source of a lot of discussion. 
What we do find, however, is that wherever pricing strategies 
have been implemented and then a referendum is taken after the 
fact or a survey is taken after the fact, we find that the 
reaction of the populations to those pricing strategies does 
not seem to be a function of income levels.
    By and large, these strategies have been broadly embraced 
by the people that have been subjected to them. In Stockholm, 
for example, they put a pricing scheme in place in order to 
calibrate the use of transportation assets for getting to and 
from the downtown area. They did it on a temporary basis 
because they wanted to see what the reaction would be. They had 
a referendum; the referendum was a broad acceptance of the 
idea, so that by mid-summer they are going to put it in place 
on a permanent basis. They have all levels of income, of 
course, in the population of Stockholm.
    There is not any effort here to ignore the issues that are 
raised by lower income elements of our population. If in fact 
that is a problem for our transportation system, for getting 
people to and from their jobs, particularly where they have no 
discretion, we should address that straight up. It may mean 
that we need to find ways of assisting lower income folks in 
using a transportation system more efficiently if in fact the 
use of that transportation system more efficiently requires a 
pricing strategy. We shouldn't be chasing the lowest common 
denominator because of a problem that we have with some income 
strata in our society. We should address those problems in ways 
that respond to those problems, but not sacrifice the 
efficiency of our transportation system because of them.
    Mr. DeFazio. So the example is Stockholm, where they have a 
massive investment in public transit in a region called Europe, 
where they are much less dependent upon automobiles and have 
totally different land use and development patterns, and 
suddenly we are going to apply things that work for the people 
of Stockholm to the United States and think that they are going 
to work and they will be popular.
    You know, maybe I just have too much of a western, U.S. 
view of the world, but I really don't see that. And what I find 
is, again, a single-minded push here toward private-public 
partnerships--if I could, since you raised the issue of not 
having a problem with what the Committee has stated, because 
have tried to fairly state the potential benefits, small as 
they are, of private-public partnerships and the potential 
pitfalls, huge as they are, of private-public partnerships, 
especially when you are talking about monetizing existing 
assets and giving monopoly authority to an entity for up to 100 
years to price an asset which is irreplaceable and which you 
can't compete with in many cases.
    I would note that the last time I think either you were 
here or Mr. Duvall was here, we heard that quite soon we would 
have a little more balanced presentation on the DOT website 
other than the so-called model legislation, which really points 
people at the pitfalls and the wrong approach, and it still 
isn't posted yet. We heard that was imminent.
    I do note that you could find space to post some articles 
critical of the Chairman and myself, yet you didn't post a 
number of articles that are critical of PPPs. It just seems 
like one-sided advocacy here, like we are making transportation 
policy out of the Heritage Foundation, and that is not going to 
be acceptable to a majority of the people either in the 
Congress or the United States of America.
    Mr. Shane. There is no question that there is a controversy 
about all of this. What I see happening across this Country 
and, frankly, around the world is an increasing recognition 
that the reliance on government funding for transportation 
assets is something that we are approaching the end of; it is 
simply not going to be possible to----
    Mr. DeFazio. Well, excuse me, but we are only approaching 
the end of this because this Administration said no taxes, no 
user fees, no bonding, no more money; and we had to drag them 
kicking and screaming to a marginal number. That is why. We are 
talking about will. It is just like Mitch Daniels saying, gee, 
there was no will to raise the tolls, until he entered a 
monopoly agreement; then suddenly he had the will to raise the 
tolls and now they have absolute discretion to raise the tolls 
and no one can touch them, it is in a contract.
    So you are saying there is no money out there, but somehow 
we can extract money from people through private contract 
agreements, which include a profit motive, but we can't just 
get a cost-based--which is without a profit motive--investment 
by the Federal Government. It goes to will at some point. I 
know the will isn't downtown. Whether the will is uptown here, 
at the Congress, we will see in two years.
    But you can't say there isn't a capability of raising more 
funds in the United States of America to invest in transit and 
roads, and I look at, and a number of people have mentioned, 
Washington State. Washington State just raised the gas tax. 
They are talking about now raising title fees. My State raised 
title and other fees. People are willing to accept dedicated 
taxes when they see a real benefit, the benefits to their 
transportation and their movement and the economy.
    This White House and Administration has been totally 
unwilling to discuss that, but you are obsessed over here with 
the hundreds of billions of dollars of private money floating 
around out there. It might not be quite as much as you think if 
you read the most recent articles in The Wall Street Journal 
about Macquarie's books, which is starting to look at lot like 
Enron's.
    Mr. Shane. Well, Macquarie is one of a great many 
investment banks that are beginning to look at this new vehicle 
for investment.
    I predict that no future administration is going to come 
out very differently on the issue of public financing of 
transportation. We know that the entitlement programs are 
simply overwhelming our budget. That will continue to be the 
case for a long time. There simply has got to be discipline on 
the use of government funds, and that is going to be a fact of 
life for every future administration, not just this one.
    When in fact there are so many alternative ways of funding 
transportation assets which produce a calibration of the use of 
those assets that actually makes them more productive, it is 
difficult to understand why there is so much controversy about 
it.
    Mr. DeFazio. Okay, thanks. We will just have to disagree. 
As usual, you are in your diplomatic mode here. You know, the 
calibration of use means we price modest and middle income and 
low income people off the roads, which are taking up public 
space, where they have no alternative. I look at this road they 
are going to build out here. I don't think Members of Congress 
are going to be able to afford the road at 20 bucks a pop, let 
alone modest working people So let's go to transit for a 
moment, and then I will turn to Mr. Duncan.
    The question for Mr. Simpson, since we are talking about 
transit does get a minimal little nod here as part of this 
solution at the end, but it seems to be totally oriented toward 
bus rapid transit, utilizing private, for-profit HOT lanes. Is 
that the only vision or are we going to make some progress on 
new starts, small starts? Are we going to incorporate the 
mandated economic development and land use statutorily mandated 
criteria?
    Because I notice that you have now included non-statutory 
criteria, which happen to support this privatization congestion 
management program, and saying, well, if you adopt those, we 
will give you more points, but if you did the economic 
development or you did the land use that is required by 
statute, we can't figure out how to rate that, so we will rate 
you up for what we want to do, which isn't authorized by law, 
but we won't rate you for the things required by law. Could you 
answer that?
    Mr. Simpson. Could you redirect the question? I am not sure 
of the question.
    Mr. DeFazio. Well, the question is when are we going to see 
the formulas modified to actually incorporate the statutory 
requirements of economic development and land use, and how is 
it that you can suddenly add a criteria that isn't statutorily 
authorized, which is to support this particular program----
    Mr. Simpson. Right. You are talking about the Congestion 
Initiative?
    Mr. DeFazio.--but you can't get to the economic development 
and land use. Why is that?
    Mr. Simpson. Well, let's take the congestion piece first 
that we are adding to it. That is a sub-component of mobility 
and it is clear throughout SAFETEA-LU, at least on the transit 
side, that one of the things we are trying to do is free up 
congestion.
    With respect to economic development and land use, we had a 
stand-alone hearing--I don't know, was it a month ago?--and I 
promised that the rule would be out by the end of the money, 
and I apologize in advance that it is not out yet. But after 
our long hearing we went back and had very robust conversation 
at the Department, and we are looking for ways to quantify 
economic development. We are going to be asking the stakeholder 
community and we do, in our project justification, we do look 
at land use and we do look at economic development.
    But Mr. Chairman, I have to tell you it is very hard--I 
have been talking to economists myself; I have been dragging 
the folks at DOT. It is very difficult at times to define the 
difference between economic development and land use. And when 
you are looking at a national program, if we don't build a 
transit project, but we build a school instead, but we still 
have construction, you know, separate all that out. It is 
really a challenging----
    Mr. DeFazio. Right. But we did have an economist sit right 
there who sketched out ideas for a model, and he did talk about 
Transportation System User Benefit and Summit Software as a 
really bad box that is being applied to everything that really 
distorts the whole system.
    Mr. Simpson. Mr. Chairman, I spoke to him--I think that was 
David Lewis. Was it David Lewis?
    Mr. DeFazio. I----
    Mr. Simpson. Okay. Anyway, I spoke to the economist, and he 
has been to my facility, to the FTA, and he is welcomed back to 
talk about it further. But even with this cost-effectiveness 
issue that we talked about before, if a transit project is 
going to deliver good benefits, there has to be a mobility 
component to it. So, in a convoluted way, this cost-
effectiveness is measuring economic development.
    We want to get where the Congress wants us to be, but it is 
a huge challenge, and I promise you we are working towards 
that.
    Mr. DeFazio. Okay, thank you.
    Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. I have already 
asked the questions that I wanted to ask, but I will say that, 
Secretary Shane, you are exactly right on the runaway 
entitlements in future years. In fact, Dan McFeatters, who is a 
columnist for the Scripps Howard newspaper chain, wrote a 
couple years ago and said that we are headed for a financial 
tsunami shortly after the baby boomers start retiring in large 
numbers in 2008, and that is going to cut into every department 
and agency in the entire Government.
    But what I wanted to get at in this in just a few comments, 
I mentioned in my opening statement and then in my questions 
that I think the Congestion Initiative and the urban 
partnership are good things, and I pointed out that the 
congestion is not just confined to our older, what we 
traditionally think of as our larger cities, but also many of 
the newer, faster growing cities.
    I think that is all fine, but I also mentioned my hometown 
of Knoxville, which, if you looked at a population book, you 
would see, I don't know, it might show 185,000 or something in 
that vicinity, and you might think, well, the problems there 
couldn't be that great. But what you have, as I said, you can't 
tell when you go from the city to the county.
    Knox County has about 410,000. Then you have got the really 
fast growth in the counties that touch on Knox County. So you 
have got close to a million and a half, I think, now in the 
SMSA. Then you have got between 9 million and 10 million coming 
to the Smokies, and most of those get off the interstate there 
at Knoxville. Interstate 75 is the heaviest traveled north-
south interstate in the whole Country, so that is many millions 
there going to Florida, going to Atlanta, other places.
    You have got Interstate 40, one of the main east-west 
routes, running right through Knoxville. Then you have the 
heaviest traveled truck route on Interstate 81 coming to within 
37 miles of Knoxville. In addition to that, we live within 
about 600 miles of over two-thirds of the population.
    What I am getting at is this. There are some places like 
Knoxville--I have said in here before in other hearings I 
generally or many times face much more traffic in Knoxville 
than I do here. So there are some places whose traffic problems 
far exceed their populations. And I hope you take that into 
consideration, because it is just mega-millions there in a 
place like Knoxville that you wouldn't expect, and it affects 
all three of your departments and agencies. So I just hope you 
keep that in mind and take a close look at some of those 
places.
    Thank you very much for being with us, and I appreciate 
your very informative answers to these questions.
    Mr. DeFazio. Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. I apologize for being 
late to the hearing, but there was an occurrence that I read 
about on Saturday and talked to Mr. DeFazio about. As it 
relates to congestion, do you all remember the situation in 
California where the tanker exploded? Did you read the outcome 
on Saturday of what happened there?
    The project, if I understand correctly, was scheduled for 
50 days. There was a $200,000 bonus for every day that that 
deadline was beat. Congestion obviously was huge. The 
contractor, using American steel, Mr. Chairman, and the 
ingenuity of the marketplace, completed that project in 17 
days. So the incentive was the bonus for early completion, as 
opposed to punitive liquidated damages.
    I don't know as much as I should, but the results are 
stunning and very, very positive. What lessons have we learned 
from that and are there some things here that we can apply to 
future projects to take advantage again of American expertise, 
ingenuity, steel, and incentive for performance? Any comments 
on that would be appreciated. That was a really uplifting 
article.
    Mr. Capka. Sir, we are just as excited about the innovation 
and creativity that was demonstrated by California Department 
of Transportation in the private sector there in Oakland. Some 
of the features that were key to that success, first of all, 
was everybody was focused on a goal that needed to be 
accomplished, the public-private sector, everybody there was 
focused on making sure it got done. Secondly, California 
Department of Transportation used a contracting technique that 
just unleashed the creativity and the innovation of the private 
sector. You hit the bonus, $5 million. The winning bid on that 
project was $800,000.
    Mr. Hayes. Exactly.
    Mr. Capka. Because a contractor knew, I can make that 
bonus, and he set up an arrangement with the steel supplier to 
have those beams ready to go. California Department of 
Transportation was calculating that it would take another 30 
days, at least, to have the steel onsite, so their expectations 
were another month to six weeks longer. The contractor saw that 
incentive, probably shared a little bit of that incentive with 
the steel fabricator to ensure that the materials showed up 
onsite, and they had a winning combination. That is the kind of 
example we are trying to export to other parts of the Country 
when we see how valuable that is.
    Mr. Hayes. And I think they saved $1 million. The next 
lowest bid was 6.8, as I recall. But the more I think about it, 
it kind of reminds you a little bit of the runway project down 
in Atlanta that was completed.
    But this, again, Mr. Chairman and Members, is where we need 
to be headed as we work to deal with congestion. So get that 
word out there.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. Mr. Baird, quickly.
    Mr. Baird. Yes. I would just point out, Mr. Capka, we have 
spoken before about Buy America. Mr. Hayes cares deeply about 
this, as do I. He was only able to get that steel because he 
had a steel fabricator stateside. If he had been dependent on a 
foreign fabricator who said we don't want to provide it to you, 
they would have been out of luck. So we need to keep those 
steel fabricators domestic.
    Mr. Capka. Sir, that was a great example of solid teamwork 
there, I agree with you 100 percent.
    Mr. DeFazio. Well, and I certainly would emphasize what Mr. 
Baird did. Critical infrastructure materials need to be 
domestically produced on not just basic materials but, in my 
mind, obviously, hopefully more sophisticated things like 
streetcars, which we are trying to pioneer.
    I would just, in closing, reflect that we have a dedicated 
funding source. We know that there are some problems with that, 
but the highway program and transit program, with the exception 
of the potential shortfall in 2009, has been funded out of 
dedicated revenues; it is not like other programs which are 
funded from general funds. The question is can we find an 
enhanced revenue stream that will be dedicated to those 
purposes, yes or no. If there is absolutely no way to find one, 
sure, then we are going to have to cast a broad net for other 
alternatives.
    But we have discussed a few of the problems that could come 
with private-public partnerships and congestion pricing and 
some of the inequities and other issues that are raised by 
that, but beyond that you have got to remember many of these 
assumptions that have gone into Macquarie's perspectives, they 
have said they are not going to make the money on increased 
efficiency on the Indiana Turnpike; they are going to make it 
on toll increases, plain and simple.
    So you are going to extract the money from people one way 
or another, and you can extract it from them and include a 
profit component, or you can do it at cost and serve the 
general public, or you can have some combination thereof, and I 
am just saying there is no one-sided answer to this problem. It 
is a huge problem. The costs of congestion are massive; the 
waste of fuel is horrible; the loss of time weighs on many 
people's lives and it hurts business and our competitiveness 
internationally, and we have got to approach this in a way that 
doesn't just offer a simplistic and diversionary answer, but a 
comprehensive approach.
    I thank you all for your time. We are going to now have two 
votes, and as soon as the votes are concluded we will have the 
next panel. With that, the Committee is in recess.
    Mr. Baker. Mr. Chairman, could I ask him one more question 
as we are walking out the door?
    Mr. DeFazio. Yes, go right ahead.
    Mr. Baker. I was just think about the coordination in that 
California Department of Transportation project. As we look, 
everybody here, in their district, has probably a bypass or a 
highway project that has been kind of slow. If you all could 
help us to help you coordinate some of the different agencies 
that are required to line up and sign up before the Monroe 
Highway 74 bypass can be completed, I think that would be a 
very positive exercise, because the sheriff and Congressman 
Baird and Mr. DeFazio and others, everybody has a Highway 74 
bypass project. If we could apply the technology and skills 
that we discussed, that would be really good.
    Mr. Baird. We have just got to get some tanker trucks to 
burn up in our own districts, and we will be on our way.
    [Laughter.]
    Mr. DeFazio. Now, Mr. Baird, don't.
    Just one other. I don't want to leave that we are totally 
at odds here. I do agree that we can attribute 50 percent of 
the congestion to other than capacity constraints, and I note 
that you say more attention needs to be paid there. I would 
like to know what initiatives the Administration is undertaking 
in those areas.
    I think we ought to have some sort of clearinghouse. I 
mean, it seems to me there is a lot of jurisdictions out there 
that are doing some interesting and innovative things that 
other jurisdictions might not know about, and if we provided a 
service of sort of a clearinghouse at the Federal level for 
everybody to bring in or contribute their non-congestion ideas 
and make them readily available through a website or something 
like that, I think it could be very helpful.
    Mr. Capka. Sir, I will just comment on that very briefly. 
We do have a program that kind of sits right on target with 
what you have described, and it is the Highways for Life 
program. It certainly started out as a program focusing on how 
to reduce the exposure time of work zones; how can you get in, 
get out, stay out, and we have been setting up a website that 
gives these examples of excellence to others to consider so we 
make them the routine. And it is not just the construction 
techniques, it is the contracting techniques that we discussed 
earlier; it is the communications, it is the ITS aspects that 
goes along with it.
    So we are very much in line with you on sharing the good 
work, the good news, the innovation that is evidenced across 
the Country.
    Mr. DeFazio. Great. Well, thank you very much. Again, thank 
you for your testimony.
    [Recess.]

    TESTIMONY OF TIMOTHY J. LOMAX, RESEARCH ENGINEER, TEXAS 
 TRANSPORTATION INSTITUTE, MOBILITY ANALYSIS PROGRAM, COLLEGE 
     STATION, TEXAS; PEGGY CATLIN, COLORADO DEPARTMENT OF 
TRANSPORTATION, DEPUTY EXECUTIVE DIRECTOR; CRAIG STONE, DEPUTY 
 ADMINISTRATOR, WASHINGTON STATE DEPARTMENT OF TRANSPORTATION, 
                        URBAN CORRIDORS

    Mr. Lomax. Thank you very much. I will try to use your time 
resource wisely.
    Thank you very much for the opportunity to discuss the 
future transportation issues and some of the solutions to the 
problems. I want to make sure you understand from the outset 
that I haven't really changed any of my views from the last 
time I appeared before this Subcommittee. I think we have 
enormous challenges. I think there are some solutions and I 
think that congestion is only one of the challenges that we 
face.
    I also think that Congress can play a very important role 
in helping Americans get to their schools, their jobs, their 
health facilities, shops, as well as moving toward a desirable 
quality of life. I appreciate the chance to appear before you 
today and I welcome any questions you might have.
    I want to summarize my written remarks with a few 
observations. Number one, I think congestion problems are going 
to challenge the major metropolitan areas as well as the small 
urban areas and rural areas for many years to come. Travel 
delays and unpredictable times for people and freight will 
always be a problem. Certainly smaller cities are also seeing a 
problem from that as well.
    I also think it is important to note that some of these 
solutions don't just address one issue, but safety and 
congestion, for example, are very integrated, congestion and 
air quality are very integrated. Solutions that work on one 
problem also provide benefits on other problems. I think if we 
think of these as related problems we come very much closer to 
comprehensive solutions and comprehensive improvements in 
quality of life and economic productivity.
    I think we should think about the problems, opportunities 
and solutions in terms of niche marketing. There isn't a 
problem or a solution, a problem or a solution, some problems 
have very clear technology or infrastructure fixes, some can 
only be solved with better information and some will be best 
addressed by different policies, programs and financial or 
institutional arrangements. Some problems require big solutions 
and big price tags, but other problems require only small 
change in operations or design.
    Problems that agencies have found over the years create a 
lot of benefits for relatively little cost. Perhaps even more 
importantly, it is these simple ideas, obvious solutions to the 
public, that make a difference, that build the trust to support 
the bigger improvement programs. The transparent, data-driven 
analytical approach typically yields a variety of solutions 
with a range of cost, substantial benefits and good public 
involvement is a key to enacting these programs.
    The projects, programs and policies that each region uses 
to solve the problems will be different. As you have identified 
in the past, Portland has a different take on the solutions and 
the problems than some other places. I think that is a 
reflection of the diversity that we have in our Country, and I 
think that is good. I think the strategies are going to be 
different, depending on where you are within a metropolitan 
area as well. The same strategies that work downtown are not 
going to be the same ones that work at the port or out in the 
suburbs.
    The range of solutions obviously includes strategies to get 
more productivity out of this current system. I think they also 
require programs designed to provide travelers with a choice of 
travel modes, departure times, pricing and electronic options 
for trips, tele-commuting, for example, as well as projects to 
increase person movement and freight movement capacity. In our 
growing urban areas, we are going to need more capacity.
    It is also clear that solutions need to be pursued in a 
comprehensive way that involves the public. In all the fast-
growing areas, there is not enough funding to keep congestion 
levels where they are, much less make improvements. Judging 
from successful approaches in the past, however, comprehensive 
strategies that combine investments in things as well as people 
work very well. The solutions, therefore, I think are broadly 
defined and integrated in a related combination of operating 
and maintaining what you have to the best of the ability, 
providing information and options to travelers, home buyers, 
businesses and other interested groups so that they make 
choices to avoid long travel times, whether that is day to day 
or year to year.
    Expanding the system where bottlenecks or growth make other 
options inadequate to meet the goals that the community has 
set, these are goals the community has set. Monitor the effect 
of the programs, policies and projects to make operational and 
design improvements and to provide an accountable and 
transparent reporting to the taxpayers. So operate it as good 
as you can, identify options, identify information, identify 
ways for people to make trips, so that they have the option of 
changing their trips, and then expansion. Those three things, 
broadly defined, I think represent a good set of policies and 
programs.
    The final element, monitoring the programs, not only has a 
feedback effect of making the projects better as you go, but 
they also have the effect of building the public trust. The 
interrelationship of these factors has been clearly 
demonstrated. In California and Washington, only two examples 
have recently received significant funding increases, based on 
a combination of doing a good job with what they have, 
providing a clear plan for additional spending, that attacks 
the problems, and committing to a communication effort that 
both informs the public about the effects of the programs and 
is used internally to refine the next set of project designs 
and operating strategies. The varying amount of extra time 
travelers and freight shippers have to allow this reliability 
factor is also important. Improving that can reduce traveler 
frustration and taxpayer trust.
    Finally, let me say, I think we know what works. We know 
the projects, programs, policies that work, we know that there 
are some institutional reactions that need to take place. 
Public support and funding are vital to making this work. As my 
son's baseball coach says, folks, this is really simple, it 
ain't rocket surgery. He is sort of analogy-challenged in the 
Yogi Berra sense.
    But really, transportation is a service. We need to treat 
travelers and shippers as consumers of that service. Our 
ability to fund transportation needs rests on our ability to 
get the most out of what we have and communicate the costs and 
benefits of those options. Institutional structures, as I said, 
are organized around policies and programs that deliver 
reliable service and which prioritize spending around 
principles and along the lines of getting the most bang for the 
buck are vitally important.
    Thank you for allowing me time to express my ideas.
    Mr. DeFazio. Thank you, Doctor.
    I now turn to Ms. Catlin.
    Mr. Catlin. Thank you, Mr. Chairman and Members of the 
Committee. It is my distinct privilege and honor to be here 
before you today to tell a little story about a low-cost, easy-
to-implement congestion management tool that we in Colorado 
have utilized just to manage our infrastructure better. We are 
one of the fastest growing States, and a western State as well, 
and we are pretty proud of our ability to implement this 
project.
    Actually, the Colorado Department of Transportation 
received a value pricing pilot grant in the late 1990s in order 
to implement such a tool. We did a study that identified I-25 
from the central business district of Denver up to U.S. 36, 
about a seven mile stretch, as that HOV lane in the Denver 
Metro area that would best be suited for a conversion to an HOT 
lane that our general assembly mandated in legislation in 1999.
    As we planned the project, we embarked upon a public 
process, a number of focus groups, public opinion, surveys, and 
processes, meeting with stakeholders, etc., in order to best 
convert this project and to meet the public's needs. As you can 
see on the map, this project, as envisioned, as from the 
central business district of Denver, north about seven miles to 
U.S. 36. It is reversible, it is barrier-separated, two-lane 
facility, and, quite frankly, at the time it was greatly under-
utilized. The goal was to really optimize this section of road 
by allowing solo drivers the ability to pay a toll and buy 
access to this existing facility.
    Next, please.
    There are many stakeholders involved. They are listed here; 
I won't identify them. But we very, very carefully crafted 
interagency agreements in order to protect the public's 
interest.
    Next.
    This is a picture of the facility. You can see that it is 
barrier-separated, and the general purpose lanes. It is between 
the general purpose lanes of I-25.
    Next, please.
    How does it operate? Basically, as I mentioned, solo 
drivers and HOV lanes can utilize either lane except as the 
point of toll collection; and there is only one point of toll 
collection, about the midpoint of the seven mile facility. And 
at that point, but only at that point, solo drivers must be in 
the dedicated express lane in order to pay an electronic toll. 
HOV lanes must be in the dedicated HOV lane and signs--it is 
pretty clear where they need to be as they maneuver through the 
lanes.
    Next, please.
    It is all open roll tolling; it is electronic toll 
collection only. We were very, very fortunate to have some 
existing public highway authorities in the Denver Metro area 
with over 15 years of experience, and we capitalized on their 
experience and lessons learned. It is electronic toll 
collection only. Because they had over 400,000 toll tags or 
transponders in existence, we were able to capture some 
existing market share, and we contracted with them to do back 
office operations and provide all the services in terms of 
electronic toll collection and violation processing. In so 
doing, we minimized any need for additional staff, any 
additional government, any additional FTE and kept our overhead 
costs pretty low.
    Next, please.
    It really is the way we manage traffic congestion, we have 
a hierarchy of use. The primary use is transit; the second 
priority of use is carpoolers; and the third priority of use is 
solo drivers. And we manage the influx of solo drivers by 
managing the price of the toll that the users pay.
    Next, please.
    This is the initial toll rate structure. You will notice 
that in the peak period there is a toll rate that is paid of 
$3.25. We negotiated with our transit agency, our partners, and 
we agreed that if someone were to pay a toll, they would pay no 
less than the express fare for an express bus service for the 
same trip. We wanted transit to be very competitive, and we 
didn't want people to choose to pay a toll over the possibility 
of using transit.
    Next, please.
    But we also had to ensure that transit and HOV had no 
degradation of service, so we put together very, very strong 
metrics to ensure that there would be no degradation of that 
transit service. By doing that, we measure each and every bus 
trip into and out of the downtown area. There are about 6500 
buses per month that make a trip on that facility. We measure 
the travel time as they enter and the travel time as they exit, 
and if they drop below a trip that would be maintained at the 
posted speed limit, then we measure that. I am pleased to 
report that other than incidents such as snowstorms, we are 
operating at over a 99 percent success rate in the bus trips 
that are there.
    Next, please.
    We also developed a comprehensive incident management plan 
that encompasses not only our express toll lanes and our HOT 
lanes, but also the general purpose lanes on I-25, and we 
worked with incident responders, has a courtesy patrol and 
everything, and there are protocols that were established, so 
it is very effective. We also wanted to make it very onerous 
for cheaters, so we have a pretty high, pretty steep fine if 
you are caught violating in the HOV lane.
    Next, please.
    Some unique challenges. The challenges were very unique in 
implementing this, but it did require a very concerted public 
process: reaching out to stakeholders and a promise that we 
would measure performance and find out what the actual usage 
was.
    Next, please.
    Many of you mentioned that it would provide a predictable 
choice. It is flexible. Drivers can use any lane; they can opt 
for transit, HOV, or they can choose to pay a toll. It is 
environmentally responsible and it is sustainable.
    Next, please.
    Performance. We have exceeded our expectations. We are very 
pleased to say that not only have toll paying customers 
increased, but HOV performance has increased as well, and it is 
somewhat of a byproduct of our advertising in advance. People 
said, wow, I didn't even know that there was an HOV lane that I 
could use for free. And it is optimizing the use of the real 
estate in that about 16 percent of the person trips on I-25 
that are taken daily are taking those lanes and they are 
operating at full highway speeds without congestion. They are 
sometimes enjoying as much as a 10 to 20 minute travel time 
savings, as opposed to those in the peak hour who are sitting 
in congestion.
    Next, please.
    And also, although it is not the primary purpose, it has 
certainly been a benefit that we have seen a much greater 
influx of revenues than we had predicted. It is not supposed to 
be a money maker, but what we did, we availed the transit 
agency of their obligation for maintenance on those lanes. They 
had previously spent about $350,000 a year in snow plowing and 
sweeping.
    Through the collection of tolls, we are now able to cover 
all those expenses, and they, in turn, have an additional 
$350,000 to use for transit service elsewhere, or to enhance 
their service. Furthermore, the State had the obligation of 
about $700,000 in maintenance that they had to bear for pothole 
patching, sign replacement, striping; and we are now, through 
the collection of user fees, able to offset those costs. And 
because we are so under-funded in our maintenance activities in 
Colorado, we are able to use those elsewhere in the system as 
well.
    We exceeded our first year revenue and our first year 
traffic by about two and a half times, and we just celebrated 
our first anniversary of opening on June 2nd, and we call it 
the little project that could. It is not a huge--and I also 
want to say that it is about an $8 million investment, and that 
included the first two years of operating. We are going to be 
able to recover that, pay back that loan, as well as cover all 
of our operations and maintenance expenses.
    Thank you.
    Mr. DeFazio. Thank you.
    Mr. Stone.
    Mr. Stone. Good afternoon, Mr. Chairman. It is a pleasure 
to be here and testify before your Committee. I am Craig Stone 
with the Washington State Department of Transportation, where I 
am a Deputy Administrator for our Urban Corridors Office. What 
this is is an office in the Seattle area dealing with the seven 
most congested or most controversial corridors that we have 
there.
    I provided to you written testimony, to you and your staff, 
as well as what we call a folio of low-cost/high-benefit 
congestion relief for better highway management that our 
secretary, Doug McDonald, has put forward and has spoken to.
    If I could, I would just like to talk to a few points.
    Clearly, what you have heard today, our challenge is great 
and it is a major issue. In Seattle, the polls constantly say 
congestion traffic is the number one issue for them. With that, 
we are trying a balanced approach. We actually have a major 
investment program going on that you have heard about in 
Washington State with our nickel and nine and a half cent gas 
tax. We also have a major transit component going on transit, 
and this November we hope to have another ballot measure. So 
clearly there are major investments happening.
    I am here today to also say that we need to make sure that 
we are getting the most productivity out of those investments, 
and doing that is how we will operate and manage our system 
that we have, both where we are making improvements and where 
there are needs.
    You have also heard today about congestion happens. About 
half of it is reoccurring congestion; half of it is non-
reoccurring. If I could just speak quickly to the reoccurring 
congestion. People think of delay, but, importantly, we 
actually lose half of our capacity of productivity during 
congestion. We have Interstate 405, which is one of our 
beltways, and instead of moving 2,000 vehicles an hour through 
that, we will only move 1,000 when we need it most. So how do 
you get the most productivity is really my focus here.
    We also need to think about the customer as getting 
information to them and reliability, because sometimes, an hour 
trip could be there, where other days it could be a 20 minute 
trip. Clearly, that is important.
    Low-cost/high-benefit congestion relief comes through 
better management. We are using tried and true examples. Things 
have been done other ways, but for 30 years we have had rent 
metering in place. We have about 150 rent meters, over 150 
miles of what we call data collection. Obviously, traffic 
signalization, synchronization is very important. You get a 40 
to 1 benefit out of that investment that you make in doing 
that. Those are really good things.
    Non-recurrent delay: incident response teams. We actually 
have 40 incident response trucks that then travel our 
facilities to then respond to incidents because one minute of 
congestion can give you ten minutes of delay. So there is a 
huge return on that, and we work closely with the State patrol 
and emergency responders, and even put incentives for our tow 
truck operators to clear the incidents quickly.
    Construction work zone management I have spoken to earlier. 
We are doing more and more of early planning, including putting 
early what we call ITS out before the project, transit before 
the project, and not making it the last thing that we construct 
during a project.
    And then traveler information, I think now with the web-
based systems, portable devices, is extremely important and 
giving them accurate information so they can make good choices 
on their mode, where they are going to do their route, their 
travel time, and including one time all of our websites had 14 
million hits in one day just from that. So you can see the 
usage of that.
    Moving on, we are using the tried and true examples in 
Washington State and other places in the Nation, and Federal 
highways has been a big supporter of ITS, and we appreciate 
that. I have also participated with some States--Virginia, 
Texas, Minnesota--as well as Federal Highway staff to go to 
Europe. We heard a little bit about Europe here.
    But we want to add on, we are right now studying how can we 
add some of the management systems that they have there, which 
are speed control, lane harmonization, kind of the end of your 
congestion warnings, possibly even opening up shoulders to only 
during your peak hours; and with that we are seeing potentially 
great return on safety, and then safety then means return on 
congestion and congestion relief. So, with that, we are looking 
for flexibility from the Federal Highway Administration and 
flexibility in our funding that we might be able to test some 
of those applications.
    My last point comes a lot to the previous session you had 
also, but for our future, even with the major investments we 
are making in the Central Puget Sound area and across the State 
of Washington, we think we need bold solutions, and part of 
that comes to the open road tolling that you just heard about. 
We are opening up, on July 15th, our Tacoma Narrows Bridge, and 
that will include about 70 percent of the users will be using 
these good-to-go tags. They are the size of a credit card, put 
in your windshield, and then your account will be credited for 
that, and that is clearly for payment and payment back of the 
bonding for that particular project.
    That same good-to-go tag will be used for what we are 
having as our pilot, our State Route 167 HOT lane, which will 
be a nine mile pilot where we are taking an HOV lane and 
converting it over, and we are going to test with our public, 
our users. But, again, one customer focus, one device so they 
can use our system.
    Value pricing is important also to our future, and from the 
standpoint, as I understand today, that our State Route 520 
project was part of the short list of the UPA, and in that we 
are looking at the opportunity to not only look at how we might 
be able to bond the project and be able to make tolls for a 
bridge replacement, but how would we vary the tolls to maximize 
the throughput at the same time. So we are looking at two 
initiatives at the same point at that place.
    Clearly, with these systems, choices is very important. The 
choices of the route, the mode, time of day; will I take 
transit today, will I go in my single car, will I go in my HOV. 
We hear about the soccer moms. There are great examples in San 
Diego of what they observed, and that is why we want to do our 
pilot for four years, and we will test it, we will assess it, 
and then we will be able to look at our performance through 
that.
    In closing, the Federal support for enhancing ITS systems, 
along with this European active traffic management flexibility 
for the States to look at value pricing I think is important. 
Having a balanced approach where we are making infrastructure 
improvements, we are looking at how they will operate not only 
of year opening, but 20 years out; how they then tie in with 
bus rapid transit, telecommuting, all lead to the best 
practices, the best productivity from our systems operation and 
management.
    Thank you for the time to be here and look forward to any 
questions you might have.
    Mr. DeFazio. Thank you. Thank you all for your testimony 
and for sharing your ideas. I assume that you all were here 
during the first panel, and it seems what Colorado is doing is 
a very different model. You had an under-utilized asset and you 
priced it to bring on new users to actually more optimally 
utilize it, which is sort of the opposite about what most of 
the rest of the discussion with the first panel, particularly 
Mr. Shane, was about, which is we are going to keep pricing the 
asset until we drive enough people off it that it works more 
efficiently.
    I don't know what exactly the question is, but I think you 
were probably in a fairly unique position. There probably 
aren't too many urban areas or urbanizing areas or heavily 
utilized areas where they actually have that kind of capacity 
that they could try--they want to induce more people onto it by 
having them pay to get a privilege. Are you aware of anybody 
else who has had this opportunity? It is almost the inverse of 
what we are talking about
    No?
    Dr. Lomax?
    Mr. Lomax. I believe Miami is pursuing a similar option 
with some of their HOV lanes. Again, HOV lanes that are under-
utilized are a perfect analogy here. I think the key is that 
Colorado DOT was able to get with their partners and make sure 
the public understood what the benefit here is.
    It is not that we are allowing a whole bunch of people into 
the lane and it is going to become congested, and you folks who 
are doing sort of the societally right thing by riding a bus or 
car pool are going to get penalized; it is we have got a whole 
bunch of extra capacity here, we can handle a lot more people, 
and let's take advantage of that. We don't have many under-
utilized resources; let's see if we can get this one to carry 
more people, but at the same time not degrade the service.
    Mr. DeFazio. Right. Do you anticipate a point at which, 
with the growth, where you might bump up against the capacity 
of that? And then would you, at that point, consider variable 
pricing in order to deter people?
    Ms. Catlin. Actually, we delayed implementing a dynamic 
pricing strategy until people got accustomed to it, but, yes, 
we would implement a dynamic pricing strategy that would ensure 
that people that were using the lanes, whether it be transit 
car pools or solo drivers, would have an unrestricted trip, an 
uncongested trip. So we will be raising the price if enough 
solo drivers come in to start creating delays for the buses or 
something.
    Mr. DeFazio. But right now you have equity, basically, 
between the people that are using the bus rapid transit or the 
buses that are utilizing these lanes and the single occupant 
vehicle, is that correct?
    Ms. Catlin. That is correct. Right now, the single occupant 
vehicle actually pays 25 cents more than a transit trip in the 
same route. The transit route would stay the same. If they 
decide to raise their bus fares, then we would accordingly 
raise the peak hour trip for single occupant vehicles. But if 
it becomes congested, then we are required to work with our 
transit partners to figure out a pricing strategy that would 
work. But we are going to be implementing dynamic pricing in 
the next couple of years. But we still, when there is no 
congestion in the adjoining lanes, we drop the fare to 50 
cents.
    Mr. DeFazio. For any of the panelists, just given some of 
the concerns, societally, how is it--in your case, you have an 
equivalent option. I can choose to pay 25 cents more, drive my 
single occupant vehicle; I can take the bus rapid transit. But 
that is, again, a fairly unique, almost direct match. Whereas, 
in many cases, for someone to piece together a trip from a 
suburban area perhaps through an urban area to another area 
where they have to work, we don't provide those sorts of 
transit options. Then when you start pricing, how do we deal 
with that issue, Dr. Lomax? I mean, are we creating some--
basically, what is the message to that person, change your job 
or move?
    Mr. Lomax. Well, I think that is what we have been telling 
them for 50 years.
    Mr. DeFazio. Right.
    Mr. Lomax. We got mortgage deduction on your income tax and 
all kinds of policies that sort of make it easy for people to 
buy a house out in the suburbs. People had moved to the 
suburbs; the shops and the jobs had moved there as well, and 
how we have got this suburb-to-suburb commute that is much more 
difficult to handle with sort of the traditional 
infrastructure-based transportation systems. I think that is 
why you need a whole range of strategies targeted at what the 
problems are. California's big investment program is oriented 
around corridors to try to get high volume, high demand 
corridors to work really well; spot improvements, fixing the 
bottlenecks; adding transit where that makes sense.
    But again, you have to recognize that transit isn't going 
to work everywhere. Those low-density suburbs are very 
difficult to serve with transit, so having either a much less 
intensive form of transit, combined with some flexible work 
hours and telecommuting possibilities and ride share, sort of 
day-to-day trip making ideas and making the system operate 
better; getting the signals coordinated, those kinds of things. 
They are all strategies that work; we just have to figure out 
where they are best suited.
    Mr. DeFazio. Yes, Ms. Catlin.
    Ms. Catlin. As we look at maybe expanding our system a 
little bit further, we are looking to expand it in concert with 
transit, and on some of the highly congested corridors where we 
are looking at adding capacity with a managed lane option, we 
are working in concert with our transit provider. Right now, 
they are not necessarily providing bus service between suburb-
to-suburb because their buses are sitting in congested traffic. 
If we were to provide a priced option for solo drivers, they 
would consider increasing their transit service along that 
corridor.
    So every time we look into this or plan for this, we are 
trying to do it in concert with buses, and we already have a 
policy that we struck with our transit agency that buses would 
always go free. So we have tried to use this as a model if we 
go forward on any other corridors.
    Mr. DeFazio. Is this a public transit agency?
    Ms. Catlin. Yes, public transit agencies.
    Mr. DeFazio. We have been really focused on individual 
users, and I guess the other side of this we haven't talked 
much about today is freight mobility, as congestion relates to 
that, and I am not sure, again, that the Administration's 
advocacy for congestion pricing is going to be particularly 
applicable or help us really resolve the sort of bottleneck 
problems and things we have with freight movement, and I am 
interested in any ideas any of you have on dealing with our 
freight mobility problem.
    Yes, Mr. Stone.
    Mr. Stone. If I could, one of the observations we had 
overseas with Germany, they would open up their shoulders 
during these peak hours and actually the freight was one of the 
highest uses of those outside shoulders. And as we look at one 
of our corridors, that is one thing we are looking at and will 
be testing, is if you can open that up, you actually get about 
25 percent increase in capacity for that period when you need 
it. It may be able to address some of those peaks and keep the 
freight moving.
    So, again, a test area, something on the future. Obviously, 
in Atlanta, with a truck on the toll lanes--and that has been a 
test, trying to consider what that would be, but obviously I am 
not the person to speak to specifics of that.
    Mr. DeFazio. Just on using the shoulders, I mean, the 
question becomes you are going to have to have some awfully 
well stationed and quick removal of breakdowns, or you are 
going to have some big problems or accidents, potentially
    Mr. Stone. And that is what my message would be. Systems 
operations and management is everything comes together; 
incident response, early detection, responding to that, being 
able to lower the speeds in advance of a congested area so you 
don't have rear-end accidents that then create secondary 
accidents. You can do a lot if you really use the technology 
that we have. Our generations are growing up with technology, 
and that is part of the future, to put that in place. And then 
with that, then we look at other smaller strategies that can 
fit into it.
    Mr. Lomax. I would think that what Craig is talking about 
in terms of the best incident management program is to keep the 
incidents from happening, so to the extent you can keep people 
from running into each other at the back of a queue or 
sideswipe collisions or entrance ramp traffic flows, the ramp 
metering really has a huge beneficial effect at just sort of 
spacing out the cars that get to the freeway, so you are 
preventing collisions.
    But then very rapid response that is provided in many 
States to incidents when they happen. Houston has a program 
where tow trucks are contracted to operate on the freeways and 
are responsible for a six minute response time. When they get 
there, they pick up the car and they haul it away. They don't 
worry about doing minor engine repair on the side of the 
freeway; they get it out of the way. It has led to more than a 
10 percent reduction in collisions just on the freeway.
    But to your issue of the freight mobility, I think the 
truck only toll lanes idea is a good one. Again, it is not a 
ubiquitous kind of program, but if you focus toll lanes on 
ports or intermodal terminals or big truck volume flows, I 
think the trucking companies are going to find out that they 
are going to save these large amounts that Administrator 
Simpson was talking about in terms of their productivity. There 
is an enormous benefit there for them.
    So I think that is a part of it, but I think also, as your 
business community in Portland has found, that the port is a 
vital component of travel and you are not going to put 
containers onto light rail trains. You have got to do something 
about roads that serve the port area, or the economic engine 
begins to die away.
    Mr. DeFazio. Well, that is a point I would like to find a 
way to deal with in the next reauthorization, is sort of what I 
call a least cost approach to transportation investment, and we 
would heavily weigh factors like congestion, fuel consumption. 
Right now we are talking a lot about carbon footprints, all 
those sorts of things.
    But we have a rail system that is at capacity in the West, 
for the most part, privately operated. We have public highways 
that are at capacity, and the question becomes does it make 
more sense to build another lane mile on I-5 or would it make 
more sense maybe for some sort of public-private, truly public-
private partnership to enhance the railroad to double tracks so 
we can get some of those containers and freight off the 
highway. Any innovative thinking or ideas you have in that area 
would be welcome.
    You don't have to respond now, but if you think about it 
and get back, because right now we have got sort of the chimney 
approach. Okay, this isn't the rail Subcommittee, as you 
noticed, so they are off doing different things, and we are not 
really--I mean, if we want to be truly fuel efficient and 
perhaps cost-efficient, it looks to me like there has got to be 
a lot more utilization of rail for movement of freight.
    Mr. Lomax. I think Mr. Stone talked about the flexibility 
as an option. I think that is really what many States in Metro 
regions are looking for, and even long distance regions like 
the Administration has heard from in their corridor plan. They 
are looking for ways to be able to move money and move decision 
making sort of out into the open and be able to invest in 
projects that make sense sort of no matter what stovepipe or 
what institutional arrangements have existed in the past. So 
anything that you all can do I think would be greatly 
appreciated and would unleash some of that creative power.
    Mr. DeFazio. I would like to get there, so if anybody else 
has any thoughts about that, I would appreciate them.
    I don't have any other questions and I see no other Members 
present. Unless any of you feel there is something you would 
like to comment on that has gone on during today or something 
else you would enlighten the Committee with? If not, then I 
would again thank you for your time and your testimony, and 
this Committee is now adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5930.009
    
    [GRAPHIC] [TIFF OMITTED] T5930.010
    
    [GRAPHIC] [TIFF OMITTED] T5930.011
    
    [GRAPHIC] [TIFF OMITTED] T5930.012
    
    [GRAPHIC] [TIFF OMITTED] T5930.013
    
    [GRAPHIC] [TIFF OMITTED] T5930.014
    
    [GRAPHIC] [TIFF OMITTED] T5930.015
    
    [GRAPHIC] [TIFF OMITTED] T5930.016
    
    [GRAPHIC] [TIFF OMITTED] T5930.017
    
    [GRAPHIC] [TIFF OMITTED] T5930.018
    
    [GRAPHIC] [TIFF OMITTED] T5930.019
    
    [GRAPHIC] [TIFF OMITTED] T5930.020
    
    [GRAPHIC] [TIFF OMITTED] T5930.021
    
    [GRAPHIC] [TIFF OMITTED] T5930.022
    
    [GRAPHIC] [TIFF OMITTED] T5930.023
    
    [GRAPHIC] [TIFF OMITTED] T5930.024
    
    [GRAPHIC] [TIFF OMITTED] T5930.025
    
    [GRAPHIC] [TIFF OMITTED] T5930.026
    
    [GRAPHIC] [TIFF OMITTED] T5930.027
    
    [GRAPHIC] [TIFF OMITTED] T5930.028
    
    [GRAPHIC] [TIFF OMITTED] T5930.029
    
    [GRAPHIC] [TIFF OMITTED] T5930.030
    
    [GRAPHIC] [TIFF OMITTED] T5930.031
    
    [GRAPHIC] [TIFF OMITTED] T5930.032
    
    [GRAPHIC] [TIFF OMITTED] T5930.033
    
    [GRAPHIC] [TIFF OMITTED] T5930.034
    
    [GRAPHIC] [TIFF OMITTED] T5930.035
    
    [GRAPHIC] [TIFF OMITTED] T5930.036
    
    [GRAPHIC] [TIFF OMITTED] T5930.037
    
    [GRAPHIC] [TIFF OMITTED] T5930.038
    
    [GRAPHIC] [TIFF OMITTED] T5930.039
    
    [GRAPHIC] [TIFF OMITTED] T5930.040
    
    [GRAPHIC] [TIFF OMITTED] T5930.041
    
    [GRAPHIC] [TIFF OMITTED] T5930.042
    
    [GRAPHIC] [TIFF OMITTED] T5930.043
    
    [GRAPHIC] [TIFF OMITTED] T5930.044
    
    [GRAPHIC] [TIFF OMITTED] T5930.045
    
    [GRAPHIC] [TIFF OMITTED] T5930.046
    
    [GRAPHIC] [TIFF OMITTED] T5930.047
    
    [GRAPHIC] [TIFF OMITTED] T5930.048
    
    [GRAPHIC] [TIFF OMITTED] T5930.049
    
    [GRAPHIC] [TIFF OMITTED] T5930.050
    
    [GRAPHIC] [TIFF OMITTED] T5930.051
    
    [GRAPHIC] [TIFF OMITTED] T5930.052
    
    [GRAPHIC] [TIFF OMITTED] T5930.053
    
    [GRAPHIC] [TIFF OMITTED] T5930.054
    
    [GRAPHIC] [TIFF OMITTED] T5930.055
    
    [GRAPHIC] [TIFF OMITTED] T5930.056
    
    [GRAPHIC] [TIFF OMITTED] T5930.066
    
    [GRAPHIC] [TIFF OMITTED] T5930.067
    
    [GRAPHIC] [TIFF OMITTED] T5930.068
    
    [GRAPHIC] [TIFF OMITTED] T5930.069
    
    [GRAPHIC] [TIFF OMITTED] T5930.070
    
    [GRAPHIC] [TIFF OMITTED] T5930.071
    
    [GRAPHIC] [TIFF OMITTED] T5930.072
    
    [GRAPHIC] [TIFF OMITTED] T5930.073
    
    [GRAPHIC] [TIFF OMITTED] T5930.074
    
    [GRAPHIC] [TIFF OMITTED] T5930.075
    
    [GRAPHIC] [TIFF OMITTED] T5930.076
    
    [GRAPHIC] [TIFF OMITTED] T5930.077
    
    [GRAPHIC] [TIFF OMITTED] T5930.078
    
    [GRAPHIC] [TIFF OMITTED] T5930.057
    
    [GRAPHIC] [TIFF OMITTED] T5930.058
    
    [GRAPHIC] [TIFF OMITTED] T5930.059
    
    [GRAPHIC] [TIFF OMITTED] T5930.060
    
    [GRAPHIC] [TIFF OMITTED] T5930.061
    
    [GRAPHIC] [TIFF OMITTED] T5930.062
    
    [GRAPHIC] [TIFF OMITTED] T5930.063
    
    [GRAPHIC] [TIFF OMITTED] T5930.064
    
    [GRAPHIC] [TIFF OMITTED] T5930.065
    
                                    

</pre></body></html>
